<html>
<title> - JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF THE DISABLED AMERICAN VETERANS (DAV)</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                  JOINT HEARING TO RECEIVE LEGISLATIVE 
                 PRESENTATION OF THE DISABLED AMERICAN 
                             VETERANS (DAV)

=======================================================================

                             JOINT HEARING

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                               before the

                     U.S. HOUSE OF REPRESENTATIVES

                                and the

                              U.S. SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 28, 2012

                               __________

                           Serial No. 112-46

                               __________

       Printed for the use of the Committee on Veterans' Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   U.S. GOVERNMENT PRINTING OFFICE

73-291                      WASHINGTON : 2013

------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Printing 
 Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area 
         (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                     U.S. HOUSE OF REPRESENTATIVES,

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                              U.S. SENATE,

                     COMMITTEE ON VETERANS' AFFAIRS

                   PATTY MURRAY, Washington, Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina, 
Virginia                             Ranking
DANIEL K. AKAKA, Hawaii              JOHNNY ISAKSON, Georgia
BERNARD SANDERS, (I) Vermont         ROGER F. WICKER, Mississippi
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
JIM WEBB, Virginia                   SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  JERRY MORAN, Kansas
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas

                       Kim Lipsky, Staff Director

                 Lupe Wissel, Republican Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           February 28, 2012

                                                                   Page

Joint Hearing To Receive Legislative Presentation of the Disabled 
  American Veterans (DAV)........................................     1

                           OPENING STATEMENTS

Chairman Jeff Miller, U.S. House of Representatives..............     1
    Prepared Statement of Chairman Miller........................    19
Senator Patty Murray, U.S. Senate................................    19
Hon. Bob Filner, U.S. House of Representatives...................     3
    Prepared Statement of Hon. Filner............................     5
Hon. Corrine Brown, U.S. House of Representatives, prepared 
  statement only.................................................    20
Hon. Bob Turner, U.S. House of Representatives, prepared 
  statement only.................................................    21

                               WITNESSES

Donald L. Samuels, National Commander, Disabled American Veterans 
  (DAV)..........................................................     8
    Prepared Statement of Mr. Samuels............................    22
    Accompanied by:

      Gary J. Augustine, National Service Director
      Joseph A. Violante, National Legislative Director
      Barry A. Jesinoski, Executive Director, Washington 
          Headquarters
      Arthur H. Wilson, National Adjutant
      Ron B. Minter, National Director of Voluntary Service
      Ms. Patrice Rapisand, National Commander, Disabled American 
          Veterans Auxiliary


   JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF THE DISABLED 
                        AMERICAN VETERANS (DAV)

                       Tuesday, February 28, 2012

             U.S. House of Representatives,
                                   and U.S. Senate,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:38 p.m., in 
Room 345, Cannon House Office Building, Hon. Jeff Miller, 
[Chairman of the House Committee on Veterans' Affairs] 
presiding.
    Present: Representatives Miller, Bilirakis, Roe, Flores, 
Runyan, Amodel, Turner, Filner, Michaud, Braley, Donnelly, 
Walz, and Barrow.
    Senators Murray and Boozman.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    Mr. Miller. Ladies and gentlemen, thank you very much for 
attending today. I know Senator Murray is on the way. She may 
be held up in the hall somewhere, but we want to go ahead and 
start.
    I want to thank everybody for being here today, your 
National Commander Samuels to our joint hearing here in the 
Cannon Caucus Room, and of course, we're here today to hear the 
DAV legislative priorities for the year.
    One bit of housekeeping before we begin. In the interest of 
time, after hearing from Chairman Murray, Ranking Member 
Filner, and I believe will be Ranking Member Senator Boozman, I 
would like to ask the Committee Members to waive their opening 
statements, and there will be an opportunity for remarks during 
the question and answer period.
    Hearing no objection, so ordered.
    Speaking on behalf of all the Members of both Committees, 
we are honored to be here this afternoon with so many DAV 
members, each an American hero in their own right. Each of you 
has sacrificed selflessly in service to our country and 
continue to give of yourself today through the numerous 
positive actions made by the membership of the Disabled 
Veterans.
    On behalf of a grateful Nation, I thank you for your 
service, for your time in coming all the way to Washington to 
be with us this afternoon. And I want to say a special welcome 
to your National Commander, Mr. Donald Samuels.
    Sir, I thank you for being here and I look forward to 
hearing your testimony. I appreciated the opportunity of 
visiting with you a couple of days ago.
    I also want to thank Ms. Patrice Rapisand who is the 
National Commander of the DAV Auxiliary, who is with us as 
well. Thank you for being with us here today, thanks for all 
the good work that members of the DAV Auxiliary do for our 
country as well.
    I'd like to take a moment to recognize the members from my 
home state of Florida, especially those who may be with us from 
the Florida First Congressional District. But anybody from 
Florida, if you're able to stand, please do so that we may 
recognize you at this time.
    Mr. Miller. I am pleased to be joined by my colleagues from 
across the aisle and across the Capitol including the Ranking 
Member Filner, Ranking Member Boozman who is on his way as 
well, Members of both the House and Senate Veterans' Affairs 
Committee.
    In particular, I want to extend a warm welcome to Chairman 
Patty Murray of the Senate Committee on Veterans' Affairs. It 
was a pleasure working with her last year in constructing and 
passing the VOW to Hire Heroes Act of 2011. And I look forward 
to working further with you this year in help of Nation's 
veterans.
    Commander Samuels, as more American soldiers, sailors, 
airmen, Marines, and Coast Guard return every day from fighting 
in the War on Terror, it's a comfort to know that DAV members 
nationwide stand ready to support them.
    In a time of continuing conflict and fiscal constraint here 
on Capital Hill, the services provided by great organizations 
like yours have never been more necessary.
    Through DAV's National Service Program, veterans are 
offered professional benefits counseling and claims assistance 
at no cost to the veteran. DAV members have provided millions 
of hours each year in service to veterans at medical centers 
and millions more hours of driving veterans to and from medical 
appointments.
    With thousands of servicemembers and veterans in my 
district, the First Congressional District of Florida, I know 
firsthand how invaluable those hours are to the veteran and who 
needs them. I am personally grateful for the services that you 
provide and the leadership that you have shown to the veteran 
community.
    As I mentioned at our Full Committee budget hearing two 
weeks ago, the largest issues facing VA, and all American 
veterans, is the threat of possible sequestration and the 
possibility of devastating budget cuts for VA. This issue 
arises due to an ambiguity in the law and there is, 
unfortunately forthcoming to this Committee's basic question on 
whether or not VA should be part of his historic cut.
    For months I've been trying to get clarity about this issue 
to no avail, and that's why I want to thank you Commander, and 
all members of the DAV, for continuing with other veterans 
groups to plead with the President, and this administration, 
and the Secretary to direct the OMB to give us, and the Nation, 
the Administration's interpretation of the conflicts in law so 
we can protect veterans health care and your benefits.
    I also want to thank you for supporting my legislation, 
H.R. 3895, it clarifies the issue once and for all so that we 
won't be with our backs against the wall in a time of fiscal 
constraint.
    I ask that all DAV members here today when you meet with 
your Senators and your Members of Congress, that you would 
bring it up to them, just mention sequestration. They know 
exactly what that is. Sequestration is basically across the 
board cuts. We believe that VA is exempt from those cuts, and 
if we have to statutorily, we'll make those changes.
    I wanted to touch on few of my priorities for the coming 
year, as you will bring your priorities to us. I believe in 
vigorous oversight of VA's Veteran Benefit Management System or 
VBMS, which is VA's new paperless system for adjudicating 
disability claims.
    And while I am pleased that VA is diligently working 
towards rolling out this system soon, our Committee will 
continue our oversight to ensure that all claims are 
adjudicated accurately and quickly the very first time the 
claim is filed.
    The implementation of the VOW to Hire Heroes Act of 2011. 
This is the bicameral and bipartisan veteran job legislation 
that I was proud to work with Chairman Murray to pass last year 
on.
    And the cornerstone of that law is a provision that 
provides one year of Montgomery GI Bill benefits to retrain 
nearly 100,000 unemployed veterans between the ages of 35 and 
60. This is a landmark retraining package for veterans and one 
of our top priorities is to ensure that it, and all of the VOW 
to Hire Hero Act provisions, are implemented correctly to help 
our Nation's unemployed veterans.
    Also at the Full Committee budget hearing a couple of weeks 
ago, it was uncovered that recently VA over-estimated their 
funding needs by almost $5 billion for fiscal years 2012 and 
2013 combined. We've already started asking the administration 
tough questions about why the estimate was so far off, and why 
we, as a Committee didn't know about it until just about two 
and a half weeks ago, and most importantly, what priorities VA 
will be using to address this additional money.
    And finally, the Committee will continue our oversight of 
the VA health care system to ensure that the patient safety and 
acquisition issues that have been uncovered in the last year 
are addressed, and ensure that veterans are, in fact, receiving 
the top-quality health care they have earned.
    Commander Samuels, I once again thank you, and all of the 
DAV leadership for being here today. I look forward to hearing 
your testimony. I now turn to my good friend from the other 
side of the building, the Chairman of the Senate Committee on 
Veteran's Affairs, Senator Patty Murray for her opening 
comments.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

           OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Chairman Miller, and 
thank you for your willingness to work across the hall in a 
bipartisan way on the many issues facing our men and women who 
served our country so honorably. It's a pleasure to be here.
    And I'm pleased to be able to welcome our disabled American 
veterans here today as well. Last week, I had the opportunity 
at home to listen to veterans from across my home state, 
hearing directly from the veterans about their struggles and 
their concerns is a clear reminder of our continuing obligation 
to all of our veterans and their families, and that we have a 
lot of work to do.
    This is an obligation that continues long after the 
fighting is over, and with the end of the war in Iraq and the 
withdrawal of troops from Afghanistan, this is particularly 
true today.
    I heard at home from veterans who still face unacceptably 
long wait lines for mental health care, and are not still 
getting the type of mental health care they need. I heard from 
women veterans who are struggling to receive specialized care, 
and from veterans who are fed up with the dysfunction of the 
claims' system.
    I also heard from veterans who still find themselves 
confronted by obstacles to employment, and who are afraid to 
write the word veteran on their job application.
    Last year's passage of the VOW to Hire Heroes Act was a 
great first step in tackling the high rate of veteran 
unemployment, but more remains to be done. I will continue, as 
I always do, to highlight the tremendous value, the skills, and 
the leadership veterans bring to the table.
    And I also look forward to learning more about the VA's 
involvement with the President's proposed Veterans Job Corps. 
Each of these challenges serve as a constant reminder of the 
important work ahead, and each of these challenges is an 
opportunity for us to fulfill our obligation to America's 
veterans.
    Tomorrow I will Chair a hearing on VA's budget request for 
fiscal year 2013 and thanks to your strong advocacy, the 2014 
advanced appropriation request for VA medical care. We'll have 
an opportunity to ask tough questions of the VA, and to 
continue to work to meet our obligation to America's veterans.
    It's no secret that we face a very tough fiscal 
environment. Given that and with all the departments, other 
departments who are facing budget cuts, President Obama and 
Secretary Shinseki have done a good job putting together a 
budget that reflects a very real commitment to provide veterans 
with the care and benefits they have earned.
    Let me also applaud VA's ongoing commitment to end 
homelessness. This is an area where the VA is making strides, 
and I'm encouraged to see that they are again requesting an 
increase for funding for homeless veterans. However, in some 
areas of the budget, there is room for improvement. I'm very 
troubled that for the third year in a row, the VA has proposed 
cuts in spending for major construction and non-recurring 
maintenance.
    Last year was the first time that VA's budget outlined the 
department's construction needs over a ten year period. But the 
VA's budget request over the past two years have been only a 
fraction of the identified need.
    I'm troubled that the size of the gap between the 
infrastructure funding VA needs, and the funding requested of 
Congress. I am remain troubled by the claims backlog which has 
gone on, as you all know, far too long.
    I've seen firsthand the mounds and piles of paper at the 
Seattle Regional office and the problems caused by the paper 
based claim system. There is no question if VA has any hope of 
overcoming the claims backlog, it must continue to transform 
the claim system. There's a lot of work to do. And I will 
continue to closely monitor transformation efforts and push the 
VA to eliminate unnecessary practices and fix common claims 
processing errors. Tomorrow I expect from--to hear from the VA 
in detail about its continuing effort to fix this broken 
system.
    Another area that I am continued to be concerned about is 
mental health care. At a hearing last year, VA witnesses 
acknowledged they may, in fact, need more resources to meet the 
high demand for mental health care. I want a straight forward 
answer from the VA about their actual needs and whether the 
department's proposed five percent increase is adequate.
    As many of you know last year, I asked for a survey of 
mental health providers, which revealed significant 
shortcomings. The VA responded by proposing a plan to fix those 
problems, and I will work with the VA to ensure that those 
steps are completed as scheduled.
    I also expect the VA will not stop with what was outlined 
in that initial plan, but will continue to find ways to make 
real and substantial improvements. And this year, we will 
continue to conduct aggressive oversight of the VA's mental 
health care programs to make sure that happens.
    Not every veteran will be affected by invisible wounds, but 
when a veteran has the courage to stand up and ask for help, 
the VA must be there every single time. Not only with timely 
access to care, but with the right type of care.
    Finally, like Chairman Miller, Senator Tester and others, I 
remain concerned about the questions surrounding the effect of 
sequestration on veterans' health care. Though, I'm confident 
the veterans' programs including health care will be protected 
in the event of sequestration, I believe that our veterans 
deserve clarity on this issue, that I'm working hard to 
provide. I've expressed my concerns to Secretary Shinseki and 
Acting Director at the Office of Management and Budget, and the 
Secretary's going to hear my concerns about this again 
tomorrow.
    I've also asked the GAO to provide a formal legal opinion 
which will help in providing some resolution to this issue.
    As DAV's membership knows too well, the challenges facing 
our veterans are numerous. But so too are the opportunities to 
fulfill our obligations to these brave men and women. So I want 
to thank the DAV for your tremendous leadership and advocacy on 
behalf of your veterans.
    And I want to recognize and thank my fellow Washingtonians 
who are here in the audience today, Mike Riley, Ryan Nabors and 
William Watkins for traveling all the way across the country to 
be with us today and for all the work you do on behalf of 
Washington's veterans.
    And, Commander Samuels, thank you for coming today. I look 
forward to hearing your testimony. Thank you very much.
    Mr. Miller. Thank you, Senator. Mr. Filner.

              OPENING STATEMENT OF HON. BOB FILNER

    Mr. Filner. Thank you, Mr. Chairman. Welcome, Commander. We 
welcome all your members. We, as usual, are looking forward to 
your testimony and will learn from it.
    Your staff, Commander, and your organization has taken the 
lead in preparing the Independent Budget, and Mr. Jesinoski, 
Mr. Violante, taking a lead in this and it gives us as we like 
to say here, a Bible, so we can judge things that we get from 
our VA.
    And I've been waiving this around for as long as I've been 
a Member of this Committee. When I was Chair of the Committee 
for four years, those four years, we exceeded the Independent 
Budget all four of those years, which I'm very proud of. It 
doesn't look like we're going to be able to get there this 
year, but I still waive it around. And you've done an 
incredible service in preparing us to show some of the gaps, 
too.
    You know, as Senator Murray said, we have a long way to go 
in serving all our veterans. Here we have our young people 
coming back from Iraq and Afghanistan, they're becoming 
homeless faster than the group that came back from Vietnam. 
They're committing suicide at a higher rate. The unemployment 
rate is double or triple, an unacceptable national rate as it 
is.
    So we've got a long way to go. Any talk of sequestration or 
even the fact that we haven't met the Independent Budget, says 
that we could be falling further behind.
    So we thank you for all your work, and you know, we hear 
everybody congratulating the VA and we've very proud of some of 
the professionalism there. But we've got a long way to go. 
We've got a long way to go.
    I want to hear what you say about the claims process, but 
the VA and a lot of people here get trapped in this 
bureaucratic concept that we have to deal with it, as the 
Secretary says, by brute force. So they hire 10,000 more people 
and the claims backlog doubles. I don't get it.
    What I would do--how many of you are Vietnam vets here? The 
vast majority. I want to thank you because you never did have 
the welcome home and thank you that you should've had when you 
got home, but you know we could say thank you in a more 
concrete way. We have, I don't know, several hundred thousand 
claims for Agent Orange in our backlog. How long have they been 
fighting it, 30, 40 years? People get sicker fighting a 
bureaucracy than they did with Agent Orange.
    So you know what we ought to do, aside from greatly 
expanding eligibility to--from boots on the ground to the blue 
waters and the blue skies and Thailand and Cambodia and Laos 
and Guam, we ought to honor those Agent Orange claims today. 
Let's give people the peace that they deserve.
    Let's give them, let's give you finally some sense of 
closure here. They're telling us that costs too much. I don't 
know if it's a billion dollars or two billion dollars. I don't 
care what it is frankly. You don't think we owe it to you? We 
owe it to you.
    Our deficit is something like $14 trillion. To tell me that 
we can't afford, that we've got to pay for, as they say around 
here, the billion or two billion for our Vietnam vets, that 
means we're going to try to balance the budget on your backs? 
That's ridiculous. So let's honor those claims today, let's get 
this backlog cleared up. Let's really say, welcome home finally 
to our Vietnam vets, and give a real welcome home to these guys 
and gals who are fighting in Iraq and Afghanistan. Thank you, 
Mr. Chairman.

    [The prepared statement of Hon. Filner appears in the 
Appendix]

    Mr. Miller. At this time, I want to recognize our colleague 
from Tennessee, Diane Black, who will introduce Commander 
Samuels. You are recognized.
    Ms. Black. Thank you, Mr. Chairman and Ranking Member 
Filner, Senator Murray. It is my honor and my privilege to 
introduce to you Donald L. Samuels, who is our National 
Commander of Disabled American Veterans, who not only served 
our country, but also has had a lifetime of service to our 
brave men and women who have served and now need our help.
    Mr. Samuels, a combat-disabled Marine veteran of Vietnam 
War, and a retired DAV national service officer, was elected to 
the National Commander of 1.2 million member Disabled American 
Veterans at the organization's 2011 convention in New Orleans 
last year.
    He's a native of Louisville, Kentucky, and Mr. Samuels 
served in the Marine Corps from 1960 to 1969, when he was 
discharged due to injuries that were sustained in the Battle 
for the Hill. And while leading his infantry platoon in a 
ground assault against the North Vietnamese regulars, as the 
platoon sergeant, he sustained multiple gunshot wounds, 
resulting in a partial loss or partial use of his right hand.
    Following a 2,600 hour VA Vocational Chapter 31 Training 
Program, Mr. Samuels was assigned as an NSO supervisor at the 
Nashville DAV National Service office in 1970 where he served 
in that capacity until his retirement in 1989.
    Since 1989, Mr. Samuels has served as the Assistant 
Commissioner of the Tennessee Department of Veterans Affairs 
until he retired from there on April the 30th, 2011, where he 
was over all claims activities, outreaches, legislation, played 
an important part in establishing the state veterans' 
cemeteries and the veteran nursing homes in Tennessee. And 
that's where I came to know him as a great advocate for our men 
and women who have served our country, as I serve there in the 
state legislature.
    He is a lifetime member of the Chapter 3 in Nashville. Mr. 
Samuels has held a wide variety of chapter and department 
positions including Chapter Commander. He currently serves as 
the department adjutant, hospital service coordinator and 
department service officer director, as well as being a past 
member of the National Legislative Interim Committee and past 
Chairman of the POW/MIA Interim Committee.
    He is a co-chair of the Operations Stand Down Nashville, 
which is a homeless veterans operation that has received 
national recognition. He was elected to the national offices, 
the National 3rd through the National Senior Vice Commander's 
commencing at the organization's 2007 national convention in 
New Orleans, as I said.
    I know that I have said a lot and read a lot, but I did not 
want to leave anything at all out in showing you what a great 
leader and advocate for veterans that my good friend, Mr. 
Samuels--he also has a family. His spouse--his wife's name is 
Sandra. They both reside in the same town that I do in 
Gallatin. He is the father of two sons, one a master gunnery 
sergeant, the other a staff sergeant in the United States 
Marine Corps. And my husband also served in the Marine Corps, 
so we have a lot of connections; two daughters and nine 
grandchildren, and it is my distinct honor and pleasure to give 
to you my good friend, Samuel--Donald Samuels, excuse me. Let's 
give him a round of applause.
    Thank you.
    Ms. Black. And, Mr. Chairman, I do hate to leave this 
testimony, but Ways and Means are continuing, so I'm going to 
excuse myself. But thank you so much to you and all of the 
Members for giving me this opportunity.
    Mr. Miller. Thank you, Ms. Black, and Commander, you're 
recognized.

   STATEMENT OF DONALD L. SAMUELS, NATIONAL COMMANDER, DAV, 
 ACCOMPANIED BY GARRY J. AUGUSTINE, NATIONAL SERVICE DIRECTOR; 
  JOSEPH A. VIOLANTE, NATIONAL LEGISLATIVE DIRECTOR; BARRY A. 
JESINOSKI, EXECUTIVE DIRECTOR, WASHINGTON HEADQUARTERS; ARTHUR 
H. WILSON, NATIONAL ADJUTANT; RON B. MINTER, NATIONAL DIRECTOR 
OF VOLUNTARY SERVICE; AND PATRICE RAPISAND, NATIONAL COMMANDER, 
             DISABLED AMERICAN VETERANS AUXILIARY.

    Mr. Samuels. Thank you, Representative Black, Chairman 
Murray and Miller, I want to commend you both on your 
leadership of your respective Committees. First, I want to 
thank the Members of these Committees on behalf of the 1.4 
million members of the DAV and its Auxiliary for the support 
you have given disabled veterans and their families and 
survivors.
    I also want to wish you Godspeed in your efforts during the 
second session of the 112th Congress on behalf of America's 
service-disabled veterans, their families, and survivors.
    Please allow me to introduce those seated here at the table 
with me, as well as some other distinguished guests. Our 
National Adjutant, Art Wilson; our Executive Directors Marc 
Burgess and Barry Jesinoski; our Service Director, Garry 
Augustine; our Legislative Director, which I'm sure you all 
know, Joe Violante; our Voluntary Services Director, Ron 
Minter; our Auxiliary National Commander, Patty Rapisand of 
Texas; Auxiliary National Adjutant, Judy Hezlep; DAV Senior 
Vice-Commander Larry Polzin of California; Junior Vice-
Commanders, Mary Benavanga of New Jersey, Joseph Johnson of 
Ohio, Ron Voegeli of South Carolina, and Frank Maughan of Utah; 
our National Judge Advocate, Mike Dobmeier of North Dakota; 
Immediate Past National Commander and Board of Directors' 
Chairman, Wally Tyson of Florida; our Chaplain, Charles Edwards 
of Texas; and National Chief of Staff, George Martin from 
Tennessee.
    Let me also introduce you to my wife, Sandra; my daughter, 
Debra. My grandson, Ethan and granddaughter, Kallyn. And behind 
them is Patty and Bob Peacock, which is my sister-in-law and 
brother-in-law.
    Would the DAV National Executive Committee please stand and 
be recognized? Will the members of the National Legislative 
Interim Committee please stand.
    I'd also like to recognize the entire DAV delegation from 
my home state of Tennessee. Madame and Mr. Chairman, and 
Members of the Veterans' Affairs Committees, on behalf of the 
Disabled American Veterans and its Auxiliary, I'm honored for 
this opportunity to discuss the major concerns and agenda of 
the Disabled American Veterans for the coming year.
    Since 1920, the DAV has remained faithful to our mission of 
building better lives for our Nation's wartime service-disabled 
veterans, their families, and survivors. Part of that mission 
is advocating for meaningful, reasonable, and responsible 
public policy for service-disabled veterans.
    With the end of combat operations in Iraq, the proposed 
downsizing of our military forces and the slow recovery in our 
domestic economic situation, more veterans will be relying upon 
the Department of Veterans Affairs for services and benefits 
over the next few years.
    We must ensure that the VA is prepared to handle the large 
influx of new veterans, into its health care or benefits 
administrations. However, based on my experiences with the VA 
over the past four decades, I am not yet confident that our 
government is fully prepared to uphold its promises to the 
Nation's veterans.
    All of my adult life has been spent in service to my fellow 
veterans. When I was discharged from the Marine Corps in 1969, 
after almost nine years of active duty service, I came to a 
crossroads. At that point in my life, a young wounded Vietnam 
veteran dealing with a permanent disability, my life could've 
taken many different directions.
    However, the DAV was there for me with much-needed help. 
But the DAV went further, and offered me the privilege of 
helping my fellow veterans. In 1970, following my completion of 
a 2,600 hour VA vocational rehabilitation training program, I 
was assigned as a National Service Officer at the Nashville, 
DAV National Service Office, and served there as a supervisor 
of that office until my retirement in 1989.
    After my DAV career, I served as the Assistant Commissioner 
of the Tennessee Department of Veterans Affairs until my 
retirement in April of 2011. In that position, I supervised all 
claims' activity, outreach and legislation and played a part in 
establishing Tennessee's State veterans' cemeteries and state 
veterans' homes.
    And I continue to be a staunch veterans' advocate. I am 
also the proud father, which Representative Black mentioned of 
two sons, who have continued our family commitment to this 
great Nation. My older son is a U.S. Marine Master Gunnery 
Sergeant, a combat veteran, and a DAV member.
    My younger son is a flight engineer in the United States 
Marine Corps. He is also a combat veteran and a DAV member. 
Also I have two son-in-laws who are former marines, one of whom 
passed away at age 24, due to a service-connected disability.
    Madame and Mr. Chairman, it's a well known fact that more 
than 6,300 military personnel have died from wounds, illnesses, 
and accidents in Iraq and Afghanistan. And hundreds of 
thousands more were wounded or injured, as a result of their 
service to our Nation. The VA anticipates providing health care 
to more than 610,000 post 9/11 veterans next year. That is the 
major reason why our government must keep its promises to those 
who serve in our Armed Forces and to their families and 
survivors.
    None of these men and women joined the military to make a 
profit or to become wealthy. Like all generations of veterans, 
they joined the military for the good of our Nation and its 
citizens to protect our freedom and our safety. Both they and 
their families made great sacrifices during military service.
    For many, those sacrifices continue throughout their 
lifetime. They were put in harm's way because of the actions of 
our government; therefore, Congress and the administration are 
responsible, morally and legally for the well-being of 
veterans, their families and survivors.
    Therefore, the DAV calls upon the members of these 
Committees to ensure that our government keep its promise to 
our Nation's disabled veterans. Madame and Mr. Chairman, the 
DAV and disabled veterans we represent are grateful for the 
support that your Committees in Congress have provided for the 
VA health care system. The VA has received substantial annual 
funding increases for medical care programs for more than a 
decade. More importantly, the VA has become one of the highest 
quality health care systems in the world.
    And while the President's FY2013 budget proposal for the VA 
comes to close to what the DAV and other veterans' groups have 
recommended, we see the need for additional funding for medical 
prosthetic research and for construction, as noted in the 
Independent Budget.
    One area of concern is that veterans' medical care still is 
not sufficiently funded. Although advance appropriations have 
eliminated many of the uncertainties that plagued VA health 
care for decades, the Government Accountability Office has 
noted the use of budget gimmicks, that rob the system of 
billions of dollars under the cover of management efficiencies, 
and other clever accounting tricks.
    Also disturbing is that under the recent continuing 
resolutions which Congress passed in the absence of annual 
appropriations, the VA was forced to devote fewer resources to 
veterans' medical care than Congress authorized for the current 
year.
    The plain fact is that despite funding increases, demand 
for veterans' health care has risen faster than resources 
allocated to the VA. Yet amid widespread reports of hiring 
freezes, funding shortfalls and deferral of equipment purchases 
at medical centers, the VA somehow was able to carry over more 
than a billion dollars that it claims could not spend in 2011.
    While the DAV applauds the efforts to eliminate unnecessary 
and wasteful spending, we are concerned based on what we hear 
from VA medical facilities around the country, and from our 
members that medical services were withheld from veterans, due 
to lack of sufficient funding and unreasonable wait lists.
    Madame and Mr. Chairman, as a service-disabled veteran and 
a retired national service officer, I have taken a great 
interest in the VA disability evaluation system. Of course, I 
recognize the importance of having a modern up-to-date 
disability rating schedule that reflects advances in medical 
science. That is a necessary part of ensuring accurate 
equitable disability ratings.
    Yet, I find it very troubling that the VA may be moving 
toward revising its rating schedule with a greater focus on 
compensating veterans based on their disability's impact on 
earning capacity, while ignoring other factors, such as quality 
of life, and social impairment.
    Some argue that if you're able to work, you shouldn't 
receive disability compensation. But I simply cannot understand 
such a limited view.
    Take for example someone with a master's degree in 
business, who was highly successful in sales before joining the 
military after 9/11. Say that person had several deployments 
and suffered post-traumatic stress disorder, to such a degree 
that he or she is no longer able to interact with other people. 
Consequently, the veteran finds work as a low wage earner with 
minimal interaction with others.
    So just because a veteran is able to hold a job, even one 
that pays a fraction of his or her previous income, disability 
compensation for PTSD could be reduced.
    I can't imagine how could you possibly justify such a 
travesty. And I promise you the DAV will not stand idly by and 
allow that to happen. Madame and Mr. Chairman, Secretary of 
Veterans' Affairs Shinseki has focused a great deal of 
attention on reducing the claims backlog. He has set an 
extremely ambitious long-term goal of having no claims pending 
over 125 days, and that all claims will be completed to a 98 
percent accuracy standard.
    Certainly eliminating the backlog will be a welcome 
milestone. However, clearing the backlog is not necessarily the 
same as reforming the claims processing system. Nor does it 
guarantee that veterans are better served.
    To achieve real success, the VA must focus on creating a 
veterans' benefits claims processing system designed to get 
each claim done right the first time. Only when the VA has 
adopted a culture of quality, accuracy, and accountability will 
true reform in the claims process succeed.
    The DAV looks forward to the roll out of a new electronic 
veterans benefit management system later this year, the 
continued development of E-benefits and the other IT 
improvements that will modernize claims processing. We will 
continue to work closely with VBA leaders to ensure that DAV 
and other VSOs who represent veterans seeking earned benefits 
are fully integrated into these new IT systems.
    Madame and Mr. Chairman, the men and women seated behind me 
are vital to our mission and the well-being of our Nation's 
hospitalized, sick and disabled veterans. They represent some 
of the more than 14,000 DAV and Auxiliary members who volunteer 
their time at VA medical facilities.
    Some of them are volunteer drivers with the DAV's national 
transportation network, which provides free transportation to 
veterans in every state and nearly every congressional 
district. Thanks to them, more than 13 million veterans have 
been transported more than 495 million miles in DAV vans.
    Each year our corps of national service officers, all of 
whom are wartime service-disabled veterans, represent a quarter 
million individuals in their claims for benefits from the VA. 
Among all organizations representing veterans, the DAV helps by 
far the largest number of claimants annually, ensuring that 
disabled veterans and their families receive all the benefits 
they deserve.
    Our highly trained and dedicated national service officers 
provide free representation to any veteran or their dependents 
and survivors. And I would encourage you to put veterans in 
your district in touch with a DAV national service officer when 
they need assistance.
    Our transition service program also provides benefits 
counseling and assistance to separating military 
servicemembers. This program is a huge success in helping 
military members transition back to civilian life and obtain 
the benefits and services that they have earned.
    Since the 1970's the DAV has placed mobile service offices 
on the road to provide outreach and claims assistance to 
veterans who are unable to come into our offices. These offices 
on wheels are in your states and districts helping veterans--
our constituents--with claims.
    As you can imagine, I am very proud of the work that this 
great organization does. There is no other veterans service 
organization that contributes more to the welfare and well-
being of our Nation's disabled veterans, their families and 
survivors than the DAV.
    I can assure you, Madame and Mr. Chairman, that the DAV 
stands ready to assist you and your Committees in finding ways 
to improve the services and benefits that veterans have earned 
from a grateful Nation.
    This completes my testimony and my staff and I would be 
pleased to respond to any questions you may have. I want to 
thank you for allowing me the opportunity to appear before you 
on behalf of the DAV to share our proud record of service to 
veterans and our country. God bless America's soldiers, 
sailors, airmen, Coast Guardsmen, and Marines who are in harm's 
way, and may God bless the United States of America. Thank you.

    [The prepared statement of Mr. Samuels appears in the 
Appendix]

    Mr. Miller. Thank you very much, Commander, we appreciate 
your comments, your testimony, and your service to your fellow 
veterans, and your country for your entire career.
    Some of you have heard some buzzers going off. Just to let 
you know, the House has just called a series of votes. Our 
series will probably last about an hour. We'll have a few 
minutes still before we have to go. Senator Murray will be able 
to stay here, and then as I understand, Senator Boozman will be 
arriving, so we will continue the hearing process.
    I will submit all of my questions for the record, in order 
to allow my colleagues the opportunity to ask questions 
themselves. So I'd like to yield my time to Dr. Roe.
    Mr. Roe. I thank the Chairman for yielding and thank you, 
Commander. It's great to see you again here today from the 
great state of Tennessee, the volunteer state. I didn't really 
join the military, it sort of joined me. You know how that 
works, you went to the mailbox, they sent you a dream sheet, 
and you got to pick where you wanted to go. I thought what a 
great deal this is. And I picked the southeastern United 
States, and they got the direction right, they just got the 
continent wrong. How many times have you seen that happen?
    I want to thank you all, each person, I got off the metro 
this morning coming here, and I saw you guys and gals walking 
up, and it really made me feel proud to be a citizen of a 
country and certainly to represent it.
    I want to thank you all, the 1.4 million and I can also 
tell you without the Auxiliary, this would not nearly be the 
organization that it is, and thank you all for the work that 
you do every day.
    As you see, I know who really does the work, the Auxiliary.
    Think about this, 1.4 million of you is only .3 percent of 
the population of this country, and it's not very many. As we 
go forward, less and less and less of us have served this 
country. And I look back and think at the end of Vietnam, 
Commander, when you got out of the military, and about the time 
I got out, a couple of three years later, our country sort of 
forgot about us. And I never really thought about that much 
until a few years later, and it was absolutely wrong what 
America did for its veterans at the end of Vietnam. We've never 
treated veterans from the Civil War through all the wars since 
the way we did our Vietnam era veterans.
    And I think right now, the Vietnam era veterans are the 
ones who are leading the forefront to welcome our people back 
home. I see it every day. When I fly on an airplane, I see 
people give up first class seats, I see them do all kinds of 
things in airports, it makes me proud. Command Sergeant Major 
Walz and I, along with three others went to Afghanistan about 
four months ago. I can tell you this military we have today 
will make the buttons of your shirt pop off. They really are 
doing an incredible job, and I could not be prouder.
    And I think I speak for everyone here, I will never 
apologize for spending money on America's heroes. Never. I 
certainly see enough waste here, and it's certainly not wasted 
on our veterans. Thank you for the service you've given to our 
veterans in Tennessee. And as you know, there's a veterans 
hospital about a mile from my front door, which I frequent all 
the time.
    A couple of things real quickly I want to go through. 
First, homelessness. I know you're involved in that, and one of 
the things that's holding up the process are case managers, and 
this is something that we've got to stick the VA with. We have 
10,000 vouchers for our homeless veterans, but they can't get 
those vouchers unless there's a case manager.
    Right now in my own district, we've got vouchers we can't 
use, because the VA since November hasn't hired a case manager 
to manage those. That's ridiculous. When you're going through 
the winter, you've got a veteran sitting outside, and the VA 
hasn't hired one person because one takes care of 25 veterans. 
They have to have one person.
    So if we're going to have 10,000 more vouchers at 70 
something million dollars, it does the veteran no good who's 
outside unless the VA simultaneously trains and hires 400 case 
managers, and you can do that.
    So I guess a real quick question I have for you, as a 
veterans' services officer with obviously decades of 
experience, what's the single biggest issue that you're running 
across that we can help you with up here?
    Mr. Samuels. Well, I would say one, of course, is the 
backlog. The claims processing backlog, and of course, the 
Secretary and our staff are working together on trying to 
resolve that with the new IT programs coming in, programs that 
the Secretary is going to introduce. But I would say that is 
one of the biggest problems we hear from veterans is, why does 
it take two years to get a decision, why does it take nine 
months to get a decision.
    I could ask my staff to respond more on that question, but 
that is a big issue. If you're a service officer sitting in the 
bunker in the state, they constantly get calls where veterans 
are calling to check on the status of their claim. Because they 
have not got a decision on it.
    Mr. Roe. Mr. Chairman, I yield back. But I want to thank 
each and every one of you in this room whether you're an 
Auxiliary or you're a disabled veteran. Thank you for the 
service to our great Nation.
    Mr. Miller. And with that, I would like to yield the Chair 
to Senator Murray, so that she can continue the hearing while 
we go to our votes.
    Senator Murray. All right. Mr. Chairman, I understand that 
your Members have to go to votes, and I'm willing. If one of 
your Members has a burning question that they want to ask 
quickly before they go, I'll let them do that.
    Mr. Miller. Looks like you get to----
    Senator Murray. And no one wants to miss a vote, so.
    Mr. Miller. --ask the questions.
    Senator Murray. All right. Well, thank you very much, Mr. 
Chairman, and Mr. Samuels, thank you for your testimony. 
Really, you did an excellent job and I appreciate your response 
on the question right now about the claims process. I think 
it's something we're all hearing and couldn't agree more.
    I did want to ask you about health care funding. The VA's 
budget proposal reflects a very real commitment to provide 
veterans with the care they need. VA's budget request for 
medical care is, however, lower than the amount recommended by 
the Independent Budget. Can you tell us what the DAV's most 
significant concern with the administration's request for 
health care is?
    Mr. Samuels. I think I'm going to refer that question to 
Mr. Violante.
    Mr. Violante. Chairman Murray, thank you for that question. 
You know you've been a strong advocate for veterans and our 
biggest concern is medical care, we believe they're about $1.5 
billion below where they need to be.
    I know a GAO report came out yesterday. I have not had the 
opportunity to review it; however, I understand that once 
again, they've indicated that the management efficiencies that 
have been identified by VA over the last several years, they 
cannot truly say that VA has generated any savings from those. 
That's a concern.
    Last year, the Secretary carried over $1.1 billion, yet we 
continue to hear from our members around the country and from 
VA employees that VA is short of funds, that veterans couldn't 
get the services that they were eligible for because of the 
shortfall. So we have concerns. We would certainly love 
Congress to get VA in here to question them to find out again 
why they aren't hiring people they need for homeless programs, 
why veterans aren't able to properly access the care and to get 
what they deserve.
    Senator Murray. Okay. I very much appreciate that.
    Let me ask you about another issue I brought up in my 
opening statement, and that is construction funding. The 
President's request for major and minor construction is 
significantly less than the Independent Budget recommendation. 
I'm really disappointed in the size of the gap between what 
they say they need and what we need really to bring our 
facilities up to date.
    And I wanted to ask you, Mr. Samuels, failing to close that 
gap, what does that mean for our veterans across the country?
    Mr. Violante. Madame Chairman, I'll go ahead and answer 
that question also.
    You know, it reminds me a lot of what happened in `04 and 
`05, and you remember very well in `05 when you and Senator 
Akaka tried to have an amendment past in the Senate to increase 
funding by $1.5 billion for VA. And at that time, we were 
hearing horror stories from around the country about 
maintenance problems, about Togus, Maine, where bricks were 
falling off the building and they had to put scaffolding up to 
protect veterans as they entered, and other facilities where 
the air conditioning went down and the surgical units had to be 
closed because there wasn't air conditioning and their 
inability to get that fixed.
    MRI's that couldn't be repaired, and all of these items, as 
well as building necessary facilities or enhanced use leases to 
provide the services that are needed in certain areas. So as 
that gap continues to widen, I think we're going to see many 
more of those same problems where VA is not going to be able to 
ensure the safety of the men and women coming for services.
    Senator Murray. Okay. And this is an area I'm going to 
continue to follow. I care deeply about this and I've seen 
exactly what you're talking about. And so this is one that I 
will follow-up and push very hard.
    And finally, Commander, I wanted to ask you and I really 
want to thank the DAV for working really closely with me on the 
women's veterans bill, and I look forward to working with you 
to make sure that all the women coming into the VA system have 
the kind of quality care that they serve, but need after 
serving our country.
    But I wanted--as the last woman standing up here, I will 
ask you, what more do you think needs to be done to address the 
serious shortcomings that women are seeing as they come into 
our VA facilities?
    Mr. Samuels. Do you want to do it?
    Mr. Jesinoski. Chairman Murray, I'll take that question. 
First of all, thank you for your extremely staunch advocacy in 
this area. The DAV stands with you in your concern and care for 
our women veterans.
    And Secretary Shinseki has stated that women veterans are a 
priority for VA, and they're going down the right track, we 
believe, so we're looking for your strong oversight as they 
continue to train their personnel and to ensure that all the 
areas of care are open to our women veterans. Whether that be 
military sexual trauma, homelessness, and post deployment 
mental health, but there is much to be done for sure, and quite 
frankly, we're not finished until or unless all of our women 
veterans can walk down the walls of our VA medical centers with 
the same ease and comfort and receive the same level of care 
and breadth of care as their male veteran counterparts.
    Senator Murray. I appreciate that. And I would add one more 
challenge to all of us, and it's what I hear from women 
veterans all the time, is they don't identify themself as 
veterans. They don't write it on their resumes when they put it 
out there, their kids don't call and have their moms come to 
school and say--and tell their experiences as a veteran, they 
don't tell their friends and neighbors.
    We need to give women the power to say I'm a veteran and be 
proud of that, and I want to work with all of you to do that.
    One last question and I will turn it over to Senator 
Boozman for his questions.
    Last year as we talked about, Chairman Miller and I talked 
about the VOW to Hire Heroes Act, a very important first step 
in beginning to make sure that we are employing our veterans 
nationwide.
    I did want to ask you what more can be done to help our 
service-disabled veterans overcome some of their barriers to 
employment that I'm hearing about, and wondered if you could 
respond to that.
    Mr. Violante. There's a lot more that needs to be done, 
particularly for service-disabled veterans. And if I could, 
Madame Chairman, I'd like to get back to you in writing on 
that----
    Senator Murray. Okay.
    Mr. Violante. --to elaborate as to all the things that need 
to be looked at in that particular area.
    Senator Murray. Okay. Very good. I look forward to your 
response on that.
    Senator Boozman has joined us and I will turn it over to 
you for questions.
    Senator Boozman. Thank you. Thank you, Madame Chair, and we 
just appreciate you all being here. I want to especially thank 
those of you from Arkansas that I got to visit with a little 
earlier. Where are you guys at? Wave your hand. There we are.
    I apologize for being late. One thing I'd like to say 
before I ask just a question or two, but don't ever 
underestimate the value of you being here. Those of us on the 
Committee asked to be on the Committee. My dad did 20 years in 
the Air Force, and I really do understand how important these 
things are. But your team here does a tremendous job 
representing you. And like you say, they do outstanding, but 
there's no substitute for you being up here looking your 
Members of Congress in the eye and saying, John, you know, this 
is really, really very important.
    So I applaud you. This is a tough trip. It's an expensive 
trip. But again, I appreciate you being here, because that 
helps us push these things that are so important forward.
    I also want to thank the--while I'm thanking people, the 
Auxiliary. And we know who does--I've got a wife and three 
daughters, we know who actually does the work, and we do 
appreciate your efforts.
    You've heard me tell in the past that I was with a group 
and said that the Auxiliary was the backbone of the 
organization, which you all are. My wife on the way home said, 
John, they're also the brains of the organization. So I think 
there's a lot of truth to that also.
    Let me just ask a question, Commander, real quick. It's my 
understanding that DAV has had a staff member detailed to VA as 
part of their team, that is developing VBMS. Based on the 
reports of the staff member, do you believe VBMS is on track to 
improve the claims process and what changes should VA make to 
ensure proper implementation? Also, do you share my concern 
about the need for long-term plan to scan claims related 
documents?
    Mr. Jesinoski. Thank you for the question, Senator Boozman. 
We believe VBA is definitely on the right track with the 
Veterans Benefits Management System or VBMS, and we look 
forward to its deployment beginning in July.
    All signs indicate that this system has the potential to 
revolutionize the way that VA does its claims work, and it will 
help to greatly improve the efficiency and accuracy of the VA 
claims process.
    And you're right, we do and have had for some time a staff 
member helping, the VBA folks on the team. And we're absolutely 
pleased to have been consulted and to be able to provide that 
meaningful input. That's ongoing, we plan to continue doing 
that. But we will certainly watch this process very closely, 
and monitor as they wrap things up here, or get to the 
deployment, and we will certainly ensure that from our 
perspective, the end product is as advertised.
    Senator Boozman. So you're being really--the staff member 
being there has been a really positive thing then?
    Mr. Violante. Absolutely. Specifically, the Assistant 
National Service Director, Jim Marszalek, one of our 
professional staff members, his input has been invaluable to 
the VA folks. They've told us as much. And certainly some 
changes and tweaks have been made here and there, based on our 
input and the input of other VSOs. But again, we're going to 
continue to watch it very closely.
    We expect probably some bumps in the road, but we are very 
much behind the VBMS project.
    Senator Boozman. Good. Well, I'm glad to hear that. I'd 
heard, you know, that things were going well in that regard. 
It's good to hear that officially. And I think these are the 
kind of--you know, again, people working up here, you guys 
working so hard, these are the kind of, you know, relationships 
that we need to have. And, you know, nobody understands this 
better than you, you know, in the sense of being the 
recipients.
    And like I say, this is the kind of collaboration that we 
need to further things. So it's a great example and we 
appreciate it. So thank you, Madame Chair.
    Senator Murray. Thank you very much, Senator. I do ask 
unanimous consent that all the Members to have five legislative 
days in which to revise and extend their remarks, and include 
any extraneous material for today's joint hearing. And without 
objection, so ordered.
    With that, I want to thank all of you who are here today 
for being here to advocate for so many veterans across the 
country, and I look forward tomorrow to have a Senate 
Committee's budget hearing in which the DAV will testify.
    So, Commander Samuels, thank you very much, thank you all, 
and with that, this hearing is adjourned.
    Mr. Samuels. Thank you, Madame Chairman.

    [Whereupon, at 3:42 p.m. the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Jeff Miller
    Good afternoon. It is my privilege to welcome DAV members and 
National Commander Samuels to today's joint hearing of the House and 
Senate Veterans' Affairs Committees. We are here to receive the 
legislative priorities of the Disabled American Veterans (DAV).
    One bit of housekeeping before we get started - In the interest of 
time, after hearing from Chairman Murray, Ranking Member Filner, and 
Ranking Member Burr, I would like to ask Committee Members to waive 
their opening statements. There will be an opportunity for remarks 
during the question and answer period following Commander Samuels' 
testimony.
    Hearing no objections, so ordered.
    Speaking for the Members of both Committees, we are honored to be 
here this afternoon with so many DAV members, each an American hero in 
their own right. Each of you has sacrificed selflessly in service to 
our country and continue to give of yourself today through the numerous 
positive actions made by the membership of the DAV.
    On behalf of a grateful Nation, I thank you for your service and 
for your time in coming all the way to Washington to be with us today. 
I want to say a special welcome to your National Commander, Mr. Donald 
L. Samuels. Sir, I thank you for being here and I look forward to 
hearing your testimony.
    I also welcome Ms. Patrice Rapisand who is the National Commander 
of the DAV Auxiliary. Thank you for being here today and for all of the 
good work that members of the DAV Auxiliary do for our country. I would 
also like to take a moment to recognize the DAV members from my home 
state of Florida, especially those who may be with us from the 
panhandle's first district.
    I am pleased to be joined by my colleagues from across the aisle 
and across the Capitol including Ranking Member Filner, Ranking Member 
Burr, and Members of both the House and Senate Veterans' Affairs 
Committees. In particular, I want to extend a warm welcome to Chairman 
Patty Murray of the Senate Committee on Veterans' Affairs. Senator 
Murray, It was a pleasure to work with you last year in constructing 
and passing the VOW to Hire Heroes Act of 2012.
    I look forward to working further with you this year to help our 
Nation's veterans. Commander Samuels, as more American soldiers, 
sailors, airmen, and marines return every day from fighting in the War 
on Terror, it is a comfort to know that DAV members nationwide stand 
ready to support them. In a time of continuing conflict and fiscal 
constraint, the services provided by great organizations like yours 
have never been more necessary.
    Through DAV's National Service Program, veterans are offered 
professional benefits counseling and claims assistance at no cost. DAV 
volunteers have provided millions of hours each year in service to 
veterans at VA medical facilities and millions more hours of driving 
veterans to and from VA medical appointments. With thousands of 
servicemembers and veterans in my district, I know firsthand how 
invaluable those hours are to the veterans who need them and I am 
personally grateful for the services you provide and the leadership you 
show in the veteran community.
    As I mentioned at our Full Committee budget hearing two weeks ago, 
the largest issues facing VA, and all American veterans, is the threat 
of sequestration and possibility of devastating budget cuts for VA. 
This issue arises due to an ambiguity in the law and the Obama 
Administration's refusal to answer basic questions on whether VA would 
be part of this historic cut.
    For months I've been trying to get clarity about this issue to no 
avail, and that is why I want to thank you Commander, and all members 
of the DAV, for joining other veterans groups in pleading with the 
President to direct OMB to give us, and the Nation, the 
Administration's interpretation of the conflicts in law so we can 
protect veterans health care and benefits.
    I also want to thank you for supporting my legislation, H.R. 3895, 
that would clarify this issue once and for all to ensure that future 
generations of veterans are not held hostage due to the type of 
political gamesmanship that I believe is holding up the President's 
decision. I ask that all DAV members bring this issue up with your 
Member of Congress when you meet with them this week and help us ensure 
that the President doesn't let these cuts happen.
    Commander Samuels, I wanted to touch on few of my priorities for 
the coming year and I was pleased to see that your testimony touched on 
many of these as well:

       1. Vigorous oversight of VA's Veteran Benefit Management System 
or VBMS which is VA's new paperless system for adjudicating disability 
claims.
       While I am pleased that VA is diligently working towards rolling 
out this system soon, our Committee will continue our oversight to 
ensure that all claims are adjudicated accurately and quickly the first 
time.
       2. Implementation of the Vow to Hire Heroes Act of 2011. This is 
the bicameral and bipartisan veteran jobs legislation that I was proud 
to work with Chairman Murry to pass last year.
       The cornerstone of the law is a provision that provides one year 
of Montgomery GI Bill benefits to re-train nearly 100,000 unemployed 
veterans between ages 35-60. This is a landmark re-training package for 
veterans and one of my top priorities is to ensure it, and all of the 
VOW to Hire Heroes Act provisions, are implemented correctly to help 
our Nation's unemployed veterans.
       3. At the Full Committee budget hearing two weeks ago it was 
uncovered that recently VA overestimated their funding needs by nearly 
$5 billion for FY 12 and FY13 combined. We have already started asking 
the Administration tough questions about why the estimate was so far 
off, why we didn't know about it till 2 weeks ago, and, most 
importantly, what priorities VA will be addressing with that money.
       4. Finally, the Committee will continue our oversight of the VA 
health care system to ensure that the patient safety and acquisition 
issues that have been uncovered in the last year are addressed, and 
ensure that Veterans are receiving the top-quality health care they 
deserve.

    Commander Samuels, I once again thank you, and all of DAV's 
leadership, for being here today and I look forward to your testimony 
this afternoon.

                                 <F-dash>
    Prepared Statement of Hon. Bob Filner, Ranking Democratic Member
    Good afternoon! Welcome to Capitol Hill, Commander Samuels and 
thank you for your service. I and the other Members of the House and 
Senate Veterans' Affairs Committees, certainly look forward to hearing 
the legislative priorities of the Disabled American Veterans for 2013.
    I want to welcome those of you in the audience who are here from 
California. It's great to see you all and we all thank you for your 
selfless service. It is truly appreciated.
    Commander, I would like to begin my remarks by extending my 
compliments to your DAV Washington staff. You should be proud of the 
continued professionalism and advocacy that they convey to this 
Committee on very important issues that are critical to veterans, 
veterans' families and the community as a whole. I would also add that 
this Committee continues to look to the Independent Budget for solid 
information concerning all veterans' issues and I want you to know that 
we recognize your staffs' hard work and dedication to this key 
document.
    As you know, a few weeks ago the Obama Administration released 
their VA budget proposal for fiscal year 2013 and the Advance 
Appropriations request for 2014. In discretionary funding VA requested 
a 4.5 percent increase, and a 16.2 percent increase in mandatory 
funding, for an overall budget increase of 10.5 percent in 2013. The 
majority of these discretionary funds have already been provided 
through advance appropriations.
    Rest assured that both the Senate and House Veterans' Affairs 
Committees are thoroughly reviewing this request for veterans' funding 
and will work with the President to ensure we continue to provide 
adequate, timely and predictable funding to the Department of Veterans 
Affairs.
    My support of the President's and Secretary Shinseki's efforts to 
transform the VA into a 21st Century agency remains steadfast. I have 
committed to Secretary Shinseki that I will work with my colleagues to 
ensure he gets the funding that he has requested.
    However, I too have reservations about some of the projected 
savings and share your organizations' concern of ``budget gimmickry''.
    Commander Samuels, I want you to know that this Committee will 
fight to protect VA's funding from any cuts that may be proposed. I am 
sure you will agree with me that our veterans deserve no less.
    During the recent budget hearing we heard from the Disabled 
American Veterans about the Veterans' Benefits Administration's ongoing 
struggle to transform its claims-processing system into a modern, 
paperless based system. I look forward to hearing from you on this 
issue and other legislative priorities of the DAV.

                                 <F-dash>
                Prepared Statement of Hon. Corrine Brown
    I want to thank Chairman Miller and Ranking Member Filner for 
holding this hearing to allow the DAV to present its legislative 
agenda.
    I want to begin with acknowledging those in attendance from Florida 
who have made the trip from the state with one of the largest veteran 
populations:

    Dennis Joyner Past National Commander
    AI Linden Past National Commander
    Andy Marshall
    Guy Diffenbaugh
    Frank Chicallo
    Ken Wolfe Past National Service Director
    Fred Bristol Past National Assistant Adjutant
    Art Wilson National Adjutant
    Dave Tannenbaum
    Phil Condon
    Richard Tolfa
    Bobbie Parker
    Don Ebright

    And especially John Markiewicz, Past State Commander, from my 
district.
    It is important we hear from the leaders of the Veteran Service 
Organizations when they are in town.
    With their input, we learn what those living with VA care every day 
need.
    The Independent Budget is the blueprint which the Veterans Affairs 
budget should be based, not the other way around.
    Every year Amvets, Disabled American Veterans, Paralyzed Veterans 
of America and the Veterans of Foreign Wars get together to write the 
bible of the Veterans budget.
    It was on your initiative that we were able to get advanced funding 
for VA health care. To protect our Nations veterans from the politics 
of governments shutdowns.
    I am reminded of the words of the first President of the United 
States, George Washington, whose words are worth repeating at this 
time:

    ``The willingness with which our young people are likely to serve 
in any war, no matter how justified, shall be directly proportional as 
to how they perceive the veterans of earlier wars were treated and 
appreciated by their country.''

    Thank you for being here today to remind those of us up here in 
Washington what is important.

                                 <F-dash>
                 Prepared Statement of Hon. Bob Turner
    I join the Chairman, Ranking Member, and my other colleagues in 
welcoming our guests and thanking them for taking the time to appear 
before this Committee.
    I would like to take a moment to recognize our veteran heroes for 
their service to this Nation. The sacrifices of fellow Americans paid 
to preserve our freedom should never be forgotten.
    Like the rest of my colleagues on the Committee, I anticipate 
hearing from these distinguished panelists to understand how we can 
better serve our disabled heroes. I look forward to hearing the 
legislative priorities of 2012 for the Disabled American Veterans. Once 
again, I would like to thank our distinguished guests for their service 
and I yield my time back.

                                 <F-dash>
                Prepared Statement of Donald L. Samuels
    Madame Chairman, Mr. Chairman, and Members of the Veterans' Affairs 
Committees:
    It is indeed an honor and a privilege to appear before you today to 
discuss the major concerns and agenda of the Disabled American Veterans 
(DAV) for the coming year.
    At the outset, I want to thank the Members of these Committees on 
behalf of the more than 1.5 million members of DAV and its Auxiliary 
for the support you have given disabled veterans and their families and 
survivors and to the programs that have helped improve the quality of 
their lives. I also want to wish you Godspeed in your efforts during 
the second session of the 112th Congress on behalf of America's 
service-disabled veterans, their families and survivors.
    With the cessation of combat operations in Iraq in December 2011, 
the proposed downsizing of our military forces and the slow recovery in 
our domestic economic situation, more veterans will be relying upon the 
VA for services and benefits over the next few years. We must ensure 
that VA is prepared to handle the large influx of new veterans into its 
health care and benefits administrations. However, based on my 
experiences with VA over the past four decades, I am not yet confident 
that our government is fully prepared to uphold its promises to the 
nation's veterans.
    All of my adult life has been spent in service to my fellow 
veterans. When I was discharged from the Marine Corps in 1969, after 
almost nine years of active duty service, I came to a crossroads. At 
that point in my life - a young, wounded Vietnam veteran dealing with a 
permanent disability - my life could have taken many different 
directions. However, the DAV was there for me with much-needed help. 
But DAV went further: DAV offered me the privilege of helping my fellow 
veterans. In 1970, following my completion of a 2,600-hour VA 
Vocational Rehabilitation Chapter 31 Training Program, I was assigned 
as a National Service Officer (NSO) at the Nashville DAV National 
Service Office, and served there as Supervisor of the office until my 
retirement in 1989.
    Since 1989, I served as the Assistant Commissioner of the Tennessee 
Department of Veterans Affairs until my retirement in April 2011, where 
I supervised all claims activity, outreach, legislation, and played a 
part in establishing state veterans cemeteries and state veterans homes 
in Tennessee.
    I am the co-chair of Operation Stand Down, the only homeless 
assistance program in Tennessee that gets a VA grant. It's a full-
service operation, providing transitional housing for both men and 
women. It also has an employment program, with an 82 percent retention 
rate, and the program is currently addressing the needs of 72 veterans 
per day, eight percent of whom are women.
    I am also the proud father of two sons who have continued our 
family's commitment to this great nation. My older son is a U.S. Marine 
Master Gunnery Sergeant and a combat veteran of Desert Storm and the 
wars in Iraq and Afghanistan, and a DAV member. My younger son is a 
flight engineer in the U.S. Marine Corps and was recently deployed to 
Italy and Africa in support of operations in those regions. He is a 
veteran of combat tours in Iraq and Afghanistan and a DAV member.
    Additionally, I had two sons-in-law who are former Marines, one of 
whom passed away at age 24 due to a service-connected disability.
    Although a well-known fact, a DAV life member recently noted in a 
letter to me and I want to repeat it here because it is a major reason 
why our government must keep its promises to those who serve in our 
armed forces and to their families and survivors. None of them joined 
the military to make a profit or to become wealthy. These wartime 
service members, like all generations of veterans, joined the military 
for the good of our nation and its citizens, to protect our freedom and 
our safety. Both the service member and his or her family made great 
sacrifices during military service and, for many, those sacrifices 
continue throughout their lifetimes. They were put in harm's way 
because of the actions of our government; therefore, Congress and the 
Administration are responsible, morally and legally, for the well-being 
of veterans, their families and survivors. More than 6,300 military 
personnel have died from wounds, illnesses and accidents in Iraq and 
Afghanistan deployments, and hundreds of thousands of service members 
were wounded in action, became disabled or made ill as a result of 
their service to our nation. The men and women of the DAV will continue 
to fight to ensure that our government fulfills its promises to them.
    Since the establishment of our nation more than 235 years ago, its 
leaders of all political parties and persuasions have ever more 
recognized the Federal government's responsibility to provide 
disability compensation, health care, vocational rehabilitation and 
other vital benefits and services to America's veterans. In 1989, 
Congress passed and President Reagan signed legislation elevating the 
VA to a cabinet-level department in acknowledgment of the prominence 
our nation places on caring for veterans who have served and sacrificed 
in her defense.
    History tells us, however, that too many occasions are marked by 
promises made then broken to the individuals who have fought our wars 
and protected our freedoms. For example, following the Revolutionary 
War, a rebellion broke out when the Continental Congress was unable to 
fulfill its promises to the patriots who fought for American 
independence. In fact, the very establishment of your Committees can be 
traced to the creation of the Committee on Claims to settle that 
rebellion. Following World War I, veterans marched on Washington in the 
1930s to obtain the pension bonuses they had been promised to fight and 
win that war. Those veterans received their bonuses.
    More recently, military members were promised free health care for 
themselves and their dependents if they made the military their 
professional careers; however, they are now required to pay for part of 
their earned health care benefits. Many of these same individuals who 
retired from full military careers are also required to forego one 
dollar of their longevity retired pay for each dollar of disability 
compensation they receive. About eight years ago, Congress did 
acknowledge this inequity and corrected it for those whose disability 
rating was 50 percent or greater, and offered relief that is being 
phased in over a ten-year period. However, this inequity still remains 
for those veterans rated 40 percent or less disabled. A similar 
inequity exists for surviving spouses of military retirees, who are not 
allowed to receive both the annuity their deceased spouses bought for 
them under the Survivor Benefit Plan and Department of Veterans Affairs 
(VA) Disability and Indemnity Compensation, which is an earned benefit.
    Madame and Mr. Chairmen, DAV and the disabled veterans we represent 
are grateful for the support that your Committees and Congress have 
provided for the VA health care system. VA has received substantial 
annual funding increases for medical care programs for more than a 
decade, and more importantly, has become one of the highest quality 
health care systems in the world. Yet, despite VA's successes, 
significant problems related to access confront veterans seeking care 
for certain services and at certain locations.
    Too often over the last several decades, health care to our 
nation's sick and disabled veterans has been rationed, and in many ways 
it is still rationed today. Despite funding increases, demand for VA 
health care services by veterans has risen faster than resources 
allocated to VA. More disturbing, however, is the increasing use of 
budget gimmicks that rob the VA health care system of billions of 
dollars under the cover of ``management efficiencies'' and other clever 
accounting tricks. Despite widespread reports last year of hiring 
freezes, funding shortfalls and deferral of equipment purchases at 
medical centers, VA somehow was able to carry over more than a billion 
dollars that it claims it could not spend in fiscal year (FY) 2011. 
While DAV appreciates efforts by VA to eliminate unnecessary and 
wasteful spending, we are concerned, based on what we hear from VA 
medical facilities around the country and from DAV members, that 
medical services are being withheld from veterans due to lack of 
sufficient funding.
    The DAV calls upon the members of these Committees to ensure that 
our government fulfills its promises to our nation's disabled veterans. 
We also call upon these Committees to vigorously provide oversight of 
VA to ensure that it is properly carrying out its mission to our 
nation's sick and disabled veterans and their families and survivors. I 
will discuss this need further in my testimony today.
    Madame and Mr. Chairmen, I believe it is the obligation of every 
citizen of our country to preserve and protect the freedoms each of us 
and our nation hold so dear. America's veterans, more so than any other 
group, have lived up to their responsibilities by literally putting 
their lives on the line in defense of our country and its cherished 
ideals. Not surprisingly, we are willing to continue to sacrifice for 
the good of our nation, as long as that sacrifice is shared by all. And 
no one knows more about sacrifice than those who became disabled 
serving in our nation's military forces and their loved ones who care 
for them thereafter--the men and women seated before you today. 
Disabled veterans will forever carry the physical and emotional scars 
inflicted while performing their responsibility to America and our 
fellow citizens.
    Just as America's citizens have responsibilities to the nation, 
America's leaders and policy makers have responsibilities to our 
nation's citizens.
    Today, this concept of shared, mutual responsibility lies at the 
very heart of the ongoing debate about the size and scope of the 
federal government. As an organization that provides services at no 
cost to veterans and their families, DAV understands that government 
cannot be all things for all people. But regardless of anything else, 
there can be no question that it is, and must always remain, the 
primary responsibility of the federal government to care for our 
nation's veterans and their families. And that responsibility begins 
with the members of these Committees.
    Madame and Mr. Chairmen, over the past year there have surfaced 
some disturbing proposals that would call into question the 
government's commitment to that responsibility. Last year, we saw 
proposals that, among other things, would have offset VA disability 
compensation against Social Security benefits, vouchered out VA health 
care and undercut VA health care services through the use of budget 
gimmicks. Let me take a minute to explain the dangers of these 
proposals.
    The underlying principles of entitlement to disability compensation 
and Social Security benefits are separate and distinct. Disability 
compensation is intended to be a measure of government restitution for 
the effects of illness or injury incurred or aggravated during an 
individual's service in our nation's armed forces. Social Security 
benefits, on the other hand, are not linked to military service and are 
in no way a duplicate benefit. Therefore, the federal government 
provides VA disability compensation and Social Security payments on the 
basis of their separate entitlement criteria. Not only would a policy 
of offsetting these benefits be patently unfair, it would disrespect 
the fundamental nature and purpose of disability compensation.
    DAV strongly opposes any attempts to diminish disability 
compensation by offsetting it against any other government benefit.
    In response to access problems experienced by veterans in some 
locations and for some services, we have seen an increase in the number 
of people who believe that vouchering out VA health care is the 
preferred solution. On the surface, providing veterans with a voucher 
or card to obtain their health care in the private sector might, in 
some cases, sound like an appealing alternative to the current VA 
health care system. However, on closer scrutiny, allowing veterans to 
receive their health care in the private sector is not a viable or 
preferable option. First, the high costs of care in the private, for-
profit health care sector, compared to VA costs, would take more out of 
VA medical facilities and, in turn, would force VA to ration health 
care for those veterans remaining in the system, unless the 
Administration and Congress were willing to significantly increase VA's 
budget for contract and fee services.
    Second, VA already has the authority to provide care to veterans 
through private sector providers when no VA facility is available to 
provide such care in reasonable proximity. VA's authority to provide 
contract care includes, but is not limited to, the following:

    <bullet>  For a service-connected disability or an adjunct 
condition
    <bullet>  For a service-connected disabled veteran whose disability 
rating is 50 percent or more, for any condition
    <bullet>  Under certain circumstances, for a veteran who is 
eligible to participate in a rehabilitation program under chapter 31, 
title 38, United States Code
    <bullet>  In instances in which a VA facility is incapable of 
providing necessary in-house care
    <bullet>  When a VA facility is geographically inaccessible to a 
veteran for necessary care
    <bullet>  When a medical emergency prevents a veteran from 
receiving care at a VA facility.

    DAV believes that VA contract care for eligible veterans should be 
used judiciously and in authorized circumstances, so long as it does 
not endanger a VA facility's ability to maintain a full range of 
specialized inpatient and outpatient services for all enrolled 
veterans. VA must maintain a ``critical mass'' of capital, human and 
technical resources to promote effective, high quality care for 
veterans, especially those with complex health problems, such as 
blindness, amputation, spinal cord injury, traumatic brain injury, or 
chronic mental health problems.
    Allowing veterans to go outside of the VA for medical care, either 
through use of a voucher or card, could jeopardize VA's ability to 
provide a full continuum of care to all enrolled veterans. Accordingly, 
DAV would oppose any proposals similar to vouchering or cards, because 
they could undermine the VA health care system and jeopardize a 
veteran's ability to receive a full continuum of health care.
    Perhaps most concerning is the return of budget gimmickry that 
previously led to a VA health care funding crisis about ten years ago, 
and that could threaten the gains made through enactment of advance 
appropriations legislation. Beginning in 2002, VA proposed several 
successive budgets, each of which purported to make substantial 
``management efficiencies'' and thereby reduce the need for billions of 
dollars in direct appropriations; however, no efficiencies were ever 
documented or savings achieved to offset those funding needs, whereas 
the demand and need for resources continued to rise steadily. 
Ultimately the VA Secretary at that time was forced to report to 
Capitol Hill just weeks after presenting the FY 2006 budget and 
admitted VA was seriously underfunded by more than a billion dollars. 
In the end, Congress provided the requested supplemental appropriations 
to cover the unmet demand, but not before hundreds of thousands of 
veterans were turned away or forced to wait for vital VA health care 
services.
    In order to avoid such budget gimmickry, as well as the negative 
consequences of partisan, political fighting that led to late, 
unpredictable and insufficient VA health care budgets, DAV and the 
other members of the Partnership for Veterans Health Care Budget Reform 
began a multi-year effort to reform the VA health care funding process. 
Working side-by-side with these Committees, we were able to enact 
historic legislation that provided VA health care with advance 
appropriations and promoted increased transparency in the VA budget 
process. Signed into law on October 22, 2009, this legislation has 
helped shield VA's medical care programs from the annual threats of 
government shutdowns and continuing resolutions.
    Unfortunately, however, over the past year, both Congress and the 
Administration have taken actions that threaten the gains made through 
advance appropriations. For example, the FY 2012 budget proposed by VA 
projected $1.2 billion in savings from ``operational improvements,'' 
$500 million in carryover funding from FY 2011, an unexplained and 
unjustified reduction in non-recurring facility maintenance, and a 
billion-dollar contingency fund for medical care that might or might 
not have been released to VA. All of these assumptions were built into 
VA's FY 2012 budget, and as a result significantly lowered the direct 
appropriations approved by Congress in response.
    Our fears were confirmed in a report released last June when GAO 
pointed out that the inclusion of ``operational improvements'' were 
similar to the ``management efficiencies'' proposed by VA in prior 
years that had never materialized and led to a funding crisis in 2005. 
In addition, GAO reported that in VA's FY 2012 medical care budget 
submission, funding for non-recurring maintenance of health care 
facilities had been reduced by $900 million below the level that VA's 
own Enrollee Health Care Projection Model had already projected was 
needed to maintain its health care facilities. Coming at a time when 
appropriations for major and minor construction have fallen 
dramatically, we are concerned about the short- and long-term safety of 
VA's health care infrastructure.
FISCAL YEAR 2013 BUDGET PROPOSAL
    Two weeks ago, the Administration released its latest VA budget 
request for FY 2013 and advance appropriations for FY 2014; and while 
there are some positive aspects, it also contains many of the same 
troubling components found in last year's budget. In the context of 
today's overall fiscal environment, we are pleased that VA's 
discretionary spending would increase by $2.8 billion next year, even 
as other federal agencies are facing serious cuts. This budget proposes 
to increase spending on many critical programs, including benefits 
claims processing, homeless veterans, women veterans and vocational 
rehabilitation and employment.
    To meet the health care needs of current and returning veterans, 
the FY 2013 budget request would increase funding for veterans medical 
care programs by $2.2 billion, approximately 4.3 percent over FY 2012. 
However, we are greatly concerned that this increase, which is already 
$1.5 billion less than our Independent Budget (IB) estimate, is built 
on budgetary gimmicks and under-funding of VA's health care 
infrastructure. The FY 2013 medical care budget request was reduced by 
$1.3 billion based on an assumption that VA would achieve $1.3 billion 
in savings from ``operational improvements,'' similar to the projected 
$1.2 billion in savings projected for FY 2012. GAO has pointed out in 
the past that VA often fails to achieve or document such savings, which 
leads to shortfalls in the medical budget.
    Perhaps most troubling is the budget's failure to properly support 
VA's health care infrastructure. GAO reported last June that the FY 
2013 advance appropriation would cut VA's non-recurring maintenance by 
$1.3 billion and equipment purchases by $400 million. In addition, VA's 
FY 2013 budget request for major and minor construction was just $1.1 
billion, which is $2.6 billion less than the IB recommends, which is 
based directly on VA's own analysis and estimates of its capital 
infrastructure needs. Although Congress has funded a significant number 
of new facilities in recent years, the vast majority of existing VA 
medical centers and other associated buildings are, on average, more 
than 60 years old. Aging facilities create an increased burden on VA's 
overall maintenance requirements. Unless Congress effectively responds, 
we fear that VA's capital programs and the significant effects on the 
system as a whole, risks a diminution of the care and services provided 
by VA to sick and disabled veterans.
    For all of the above reasons, we urge these Committees to closely 
monitor VA's medical care programs to ensure they have sufficient 
funding for the remainder of this year, and carefully examine the 
latest VA budget proposal for next fiscal year to ensure that it 
continues to provide sufficient, timely and predictable funding for VA 
health care.
    For FY 2013, the IB is calling for $57.2 billion in Medical Care 
discretionary funding. The Administration has asked for $55.8 billion, 
including almost $3.3 billion in collections, which is almost $1.4 
billion less than recommended by the IB.
    For Medical and Prosthetic Research, the IB requested a funding 
level of $611 million.
    The IB recommends approximately $2.5 billion for VA's General 
Operating Expenses.
    For total construction programs, the IB recommends almost $4 
billion, $2.7 billion for major construction programs and slightly more 
than $1 billion for minor construction.
    DAV and its IB co-authors recommend a total discretionary funding 
level of slightly less than $68 billion.
REFORM OF THE VA CLAIMS PROCESSING SYSTEM
    Madame and Mr. Chairmen, a sacred obligation of our government and 
core mission of the VA is the provision of benefits to relieve the ill 
effects of disability upon veterans and their families. For those 
benefits to effectively fulfill their intended purpose they must be 
adequate and they must be decided in a timely manner. The ability of 
disabled veterans to maintain themselves and their families often 
depends on the timely delivery of these benefits. The need for benefits 
among disabled veterans is usually urgent. While awaiting action by VA, 
they and their families may suffer hardships; protracted delays can 
lead to deprivation, bankruptcies, home foreclosures, and even 
homelessness. Tragically, innumerable veterans have died from their 
service-related disabilities while their claims languished at VA, in 
some cases for years. This sad fact alone proves disability benefits 
are critical; providing for disabled veterans should always be a top 
priority of the government.
    As the House and Senate address the major challenges facing our 
nation, we urge you to continue focusing on the unfinished work of 
reforming the veterans' benefits claims processing system. For the DAV 
and many other veterans organizations, ensuring that disabled veterans 
and their dependents and survivors receive all the benefits they have 
earned, without undue delay, remains one of our highest legislative 
priorities for 2012.
    The VA has struggled for decades to reform its system for 
processing claims for benefits, and yet, despite much activity, little 
real progress has occurred. In fact, looking at the number of veterans 
awaiting rating decisions on claims for disability compensation, the 
problem is larger today than it has ever been.
    For decades, the DAV and other veterans and military service 
organizations have argued that a permanent solution to the problems 
with the claims processing system will only be achieved if VA first 
makes major structural changes in how it approaches this challenge. 
First, staffing levels must be commensurate with the increasing 
workload. VA has significantly increased personnel assigned to claims 
process during the last several budget cycles, so this need has at 
least partially been addressed. Second, proper training of all 
employees involved in the claims process is paramount to deciding cases 
correctly the first time. Third, quality review at all levels of the 
claims and appellate processes is a necessary requirement. Finally, 
there must be accountability throughout the VA to ensure that all 
claims and appellate decisions are accurate. Over the past several 
years, the DAV and others have also emphasized the importance of VA's 
using advances in information technology (IT) to provide for a 
paperless process that uses rules-based decision support. We believe IT 
could be a key to success, as indicated later in this statement.
    Despite the hiring of thousands of new employees over the past few 
years, the number of pending claims for benefits, often referred to as 
the backlog, continues to grow. Although VBA processed more than a 
million claims last year--its highest annual total ever--the volume of 
new and reopened claims still grew. As a result, in the Monday Morning 
Workload Report from February 4, 2012, there were 891,402 claims for 
disability compensation and pensions pending, an increase of more than 
115,000 from one year ago. Overall, there are 591,243 claims that have 
been pending greater than VA's target of 125 days, or more than 66 
percent of the cases pending, which is a more than 75 percent increase 
in one year.
    But more important than the number of claims processed is the 
number of claims processed correctly. The VBA quality assurance program 
is known as the Systematic Technical Accuracy Review (STAR) and is now 
available publicly on VA's ASPIRE Dashboard. The most recent STAR 
measure for rating claims accuracy for the one-year period ending 
September 2011 is 84 percent, about the same level as one year prior, 
and slightly lower than several years earlier. However, the VA Office 
of Inspector General reported in May 2011 that based on inspections of 
45,000 claims at 16 of the VA's 57 regional offices, claims for 
disability compensation were correctly processed only 77 percent of the 
time. This error rate would equate to almost 250,000 incorrect claims 
decisions in just the past year.
    To address these problems, VA Secretary Eric Shinseki has been 
focused over the past several years on ``breaking the back of the 
backlog'' of pending claims. However, it is important for the 
Committees to understand that the backlog is not the core problem, it 
is a symptom. If VA focuses only on reducing the backlog number, it 
will not sufficiently address the underlying problems that created the 
backlog, nor prevent it from growing again. Once again, to achieve real 
and lasting progress leading to success, VA must focus on creating a 
modern, paperless veterans' benefits claims-processing system designed 
to decide each claim right the first time.
    Unfortunately, VA's current performance measurements, both for the 
organization as a whole and for VA regional offices and their 
employees, look primarily at volume of work completed and pending, 
rather than on the quality of work achieved. From Monday Morning 
Workload Reports to individual employee performance standards, the 
tools used to measure VBA's success are primarily based on production, 
not accuracy. It is not surprising, therefore, that employees and 
managers remain concerned first and foremost with meeting quotas and 
production goals before turning their attention to how they might 
improve the quality of that work. VA needs to undergo a cultural change 
to redefine success away from reducing the backlog toward getting it 
right the first time. If VA cannot afford to spend the resources to get 
it right the first time, why should we believe that VA can spend the 
resources to rework a claim a second or even third time?
    Making such a significant cultural change will require a fully 
engaged and strong congressional influence. It also requires committed, 
consistent, and stable leadership from VA. We applaud Secretary 
Shinseki for taking on this challenge, and we thank him for setting 
ambitious goals and providing personal leadership. Over the past 
several years, there has been a new openness to change at the VBA, 
because VBA has worked closely with DAV and other VSOs in seeking 
innovative solutions. Building on this new partnership, we are pleased 
with the continued engagement Under Secretary for Benefits Allison 
Hickey has promoted, and we look forward to working with her to finally 
and permanently reform this system.
    The DAV looks forward to the rollout of a new electronic Veterans 
Benefits Management System (VBMS) later this year, the continued 
development of e-Benefits and the other IT improvements that will 
modernize claims processing. We will continue to work closely with VBA 
leaders to ensure that DAV and other VSOs who represent veterans 
seeking earned benefits are fully integrated into these new IT systems.
    VBA has pilot-tested dozens of business process improvements to 
reduce waiting times and increase production of claims decisions. Over 
the past year at the I-Lab in Indianapolis, VBA has sought to integrate 
the most promising of these new processes into a new operating model 
that would create a more efficient, accurate claims process. As VBA 
finalizes this new model, we would urge VA to keep the focus on IT and 
process reforms that increase quality and accuracy, the essential 
cornerstones for reforming the claims processing system. Your 
Committees can and must use your oversight authority to ensure that the 
reforms currently underway at VBA are directed toward the ultimate goal 
of creating a claims processing system that will decide claims right 
the first time.
    Better training and quality control are not only essential, they 
are interrelated and must be part of a continuous quality improvement 
program, both for VBA employees and for the claims process itself. 
Quality control programs should identify areas and subjects that 
require new or additional training for employees; better training 
should improve the overall quality of work. Testing and certification 
can help both the training programs themselves as well as measure each 
individual's knowledge and understanding of job functions. It is 
important, however, that testing and certification be applied equally 
to employees and to those who supervise them and manage their work, 
including all coaches and managers in VBA.
    DAV has testified to this challenge in the past, but it needs 
repeating today. To aid in reforming the veterans' benefits claims 
processing system, Congress should:

    <bullet>  Shift VA's approach so that the primary goal is deciding 
claims right the first time, not simply reducing the backlog;
    <bullet>  Provide aggressive oversight of VBA as it finalizes its 
new operating model to ensure that best practices are adopted and 
integrated into a new claims process focused on improving quality and 
accuracy of claims decisions;
    <bullet>  Ensure that the new VBMS is provided sufficient time and 
resources to develop into a comprehensive, paperless, and rules-based 
platform for processing veterans' claims for benefits;
    <bullet>  Ensure employee performance standards and work credit 
system create adequate incentives to increase quality and accuracy, not 
only speed or production; and
    <bullet>  Ensure sufficient training is given to employees 
throughout their careers, along with tests of all employees, including 
coaches and managers, on the skills, competencies, and knowledge 
required to do their jobs successfully.

    Madame and Mr. Chairmen, DAV and other veterans service 
organizations can play a critical role in the reform of the claims 
processing system. VSOs bring vast experience and expertise about the 
claims process gained from representing millions of veterans and their 
families in making claims for earned benefits. We make the VBA's job 
easier by helping veterans prepare and submit better claims, thereby 
requiring less of VBA's time and resources to develop and adjudicate 
them. DAV and other VSOs have been pleased with the increased 
cooperation and collaboration with VBA and we hope VA and Congress will 
continue to engage us throughout this important period of 
transformation and modernization of the benefit claims processing 
system.
ADDITIONAL OVERSIGHT
    Madame and Mr. Chairmen, as we have pledged to you previously, we 
will continue to work with you, your colleagues and your staffs to 
identify areas within VA that may be duplicative, ineffective, 
inefficient or wasteful. Every dollar that is misspent is one that 
cannot be used to help a veteran in need, and we are committed to 
working with your Committees and others to ensure that VA continues to 
deliver the services and benefits that our nation's veterans have 
earned through their service. Last year we offered a number of 
suggestions for areas that these Committees might wish to investigate, 
and I will highlight a few of them that we believe still require 
attention.

    Organizational Structure and Size of Veterans Integrated Service 
Networks

    DAV and other veterans service organizations supported VA's 
decision to restructure the VA health care system with the adoption of 
Veterans Integrated Service Networks (VISNs) as a regional health care 
organization in the 1990s. Two decades later, however, both the 
delivery of health care and the demographics and needs of veterans have 
changed. Accordingly, we would recommend these Committees commission an 
independent, outside review of the VA network concept, subsequent 
implementations, and current status, with recommended changes that may 
be warranted. The time has come for a critical review of the 
organization, functions, operation, and budgeting process at the VISN 
and VA medical center levels. DAV would recommend the review be 
conducted by the Institute of Medicine of the National Academy of 
Science.
    Another area in particular we are concerned about is the growth in 
size of the VISN bureaucracies within the Veterans Health 
Administration (VHA). When this new organizational model was developed, 
the plan called for each VISN to employ a small number of managers and 
support staff, perhaps a dozen or so, and any additional expertise 
needed would come from assigned personnel at medical centers and other 
existing facilities. Today, however, some VISNs employ hundreds of 
administrative personnel and have occupied enormous buildings to serve 
as their permanent headquarters. We urge the Committees to carefully 
examine the growth of VISNs and the increasing share of the budget that 
they currently consume, versus the value they add to the delivery of VA 
health care.

    Growth of General Administration

    Similarly, DAV has serious concerns that rising VA Central Office 
(VACO) management budgets and expanding personnel comprised a 
significant portion of FY 2012 budget growth. These increases have 
nearly doubled staff in the Office of Policy and Planning, expanded the 
Office of Public and Intergovernmental Affairs, as well as continued 
increases for the Office of Congressional and Legislative Affairs, and 
do not seem justified. The scale of these increases does not appear 
reasonable, and we have concerns about whether such bureaucratic growth 
is necessary during a time when veterans face delays in accessing 
medical care and resolving their disability claims. When budgets are 
limited, it is essential that every penny be used to meet the needs of 
the veteran.
    Another area that needs scrutiny is VA travel and conference 
expenditures. We urge Congress to scrutinize the General Administration 
account, including travel and meeting costs, to permit funding 
increases only when necessary, and to redirect savings to the VA 
services and programs veterans need.

    Care Coordination for VA Fee-Basis Care

    Another area we urge the Committee to address is the lack of 
coordination of non-VA purchased care and the process of referring 
veterans to local providers. A veteran who is approved for fee-basis 
care is not currently provided a list of private providers who are 
certified, licensed, or accredited to practice. Nor does VA identify 
local providers in the veteran patient's community who accept VA's 
payment rate. This lack of coordination can lead VA to pay higher rates 
than necessary because savings could have been achieved if VA would 
identify and contract with local networks or providers at lower rates. 
We urge Congress to conduct oversight of non-VA purchased care 
activities and policies to ensure improved coordination of care and to 
avoid excess payments made to private providers.

    Duplicative Surveys of State Veterans Homes

    Currently, State Veteran Homes must undergo regular evaluation by 
VA inspection teams. Many of the same veterans' homes are also 
inspected by the Centers for Medicare and Medicaid Services. Such 
overlap in inspection regimes appears unwarranted and we urge Congress 
to examine any duplicative surveys, including those of State Veterans 
Homes, to determine if they should be continued.

    The Costs of Brokering VBA Claims Work

    An area of the VBA claims process that needs further scrutiny is 
the growing practice of brokering claims among VBA regional offices, 
and particularly the significant costs of transporting such brokered 
claims files. While VBA is still awaiting a paperless solution to its 
claims processing problems, it must maintain and process all claims 
using paper files, many of which contain hundreds of pages. It is our 
understanding that claims are transported using FedEx shipping 
services. The costs of transporting these claims using express delivery 
services are substantial. We recommend that these Committees examine 
the entire brokering system, particularly the paper-centric logistical 
demands of current practices. We would recommend that the Committees 
examine if it may be possible to begin digitizing files that are to be 
brokered, thus saving VA significant shipping costs.
    On behalf of DAV, I urge your Committees to examine the areas we 
have highlighted above that seem to us to call out for close oversight 
by Congress, and I pledge that we will work with you to find other 
areas of waste and inefficiency in VA.
DAV'S MISSION
    Madame and Mr. Chairmen, our largest endeavor in fulfilling DAV's 
mission--Building better lives for our nation's service-disabled 
wartime veterans and their families and survivors--is our National 
Service Program. Our unparalleled program is the backbone of the DAV, 
extending from the local chapter level through the 50 state departments 
to the national level.
    After almost 20 years as a DAV National Service Officer (NSO), I am 
personally familiar with the dedication it takes to properly provide 
the level of service that we, as an organization, pledge to deliver to 
sick and disabled veterans, their families and survivors.
    Our Chapter Service Officers, Department Service Officers, 
Transition Service Officers and NSOs have never wavered in their 
commitment to serve our nation's service-connected disabled veterans, 
their families and survivors, or any veteran for that matter. No one 
has more impact on our organization's ability to meet our primary 
mission. No one has more impact on our organization's stellar 
reputation. No one has more impact on empowering disabled veterans to 
become productive members of society again. And I believe no one has a 
tougher task than those DAV service officers representing veterans and 
their families and survivors in their claims for benefits from the 
government. In addition to the long hours, often frustrating 
circumstances and tedious tasks, DAV service officers must have a solid 
understanding of the claims process in its complex entirety, intense 
training for which they receive from the national organization.

    Service Programs

    In keeping with the core values of the DAV, the National Service 
Program is our highest priority. In order to fulfill our mandate of 
service to America's service-disabled veterans and their families, DAV 
employs a corps of about 244 National Service Officers, all of whom are 
wartime service-connected disabled veterans. The experience of DAV 
NSOs, both military experience and their personal claims experiences 
with VA, not only provides a significant knowledge base but also 
provides a passion for helping veterans like themselves. DAV NSOs are 
located in VA regional offices as well as in other VA facilities 
throughout the nation.
    DAV NSOs undergo a rigorous 16-month on-the-job training program as 
well as Structured and Continued Training throughout their DAV careers. 
During the course of the on-the-job training program, NSOs learn 
applicable laws and regulations pertaining to VA benefits and complete 
a series of academic courses to include courses in anatomy and 
physiology, medical terminology, English composition, legal writing, 
and public speaking. These dedicated NSOs, many of whom are veterans of 
Operations Enduring or Iraqi Freedom (OEF/OIF), sustain DAV's legacy of 
providing the best and most professional benefits counseling and claims 
assistance available anywhere. With the generous support from a 
grateful American public and public-spirited businesses, DAV is proud 
to provide these services without cost to any veteran in need.
    During 2011, DAV NSOs interviewed over 182,654 veterans and their 
families; reviewed more than 300,600 VA claims files; filed 238,709 new 
claims for benefits, and obtained $6.5 billion in new and retroactive 
benefits for the disabled veterans whom we represented. Our NSOs also 
participated in 261,835 VA Rating Board appearances.
    Given the significant number of severely disabled military service 
members under care at Walter Reed National Military Medical Center 
(WRNMMC) at Bethesda, Maryland, DAV continues to provide assistance to 
personnel under care at this facility. The number of severe casualties 
with amputations who have been treated at WRNMMC and elsewhere 
continues to grow significantly. As of December 2011, there were 1,200 
individuals with traumatic amputations, many of these personnel have 
lost multiple extremities, and in at least four cases, the loss 
included all four limbs. The total number of OEF/OIF veterans wounded 
in action is more than 47,400.
    However, although much current public attention is focused on those 
newly wounded from OEF/OIF, thankfully these casualties of war remain 
relatively small compared to other combat eras. To put this in 
perspective, the VA reports that Vietnam veterans are its single 
largest veteran cohort, with an enrolled population of over 300,000 who 
were wounded in Vietnam, of whom 5,283 lost limbs and 1,081 sustained 
multiple amputations.
    In addition to our work at VA facilities, DAV employs nine National 
Appeals Officers (NAOs) whose duty is to represent veterans in their 
appeals before the Board of Veterans' Appeals (BVA). In 2011, DAV NAOs 
provided representation in 29 percent of appeals decided before the 
BVA, a caseload of 14,112 appeals. Almost 45 percent of the cases 
represented by the DAV resulted in remands. These remands resulted in 
additional consideration or development for 6,290 veterans who had 
cases that were not adequately considered by the Regional Offices that 
initially decided them. In almost 30 percent of the cases, involving 
4,212 veterans represented by DAV, the claimants' appeals were allowed 
and the denial of benefits overturned. This means that nearly 75 
percent of the appeals represented by DAV resulted in original 
decisions being overturned or remanded to Regional Office rating boards 
for additional development and re-adjudication. Both DAV remand and 
allowance rates were above the average of 44.2 percent and 28.5 
percent, respectively.
    Additionally, DAV works closely with two private law firms that 
have agreed to provide pro bono services to veterans pursuing their 
appeals from adverse decisions of the BVA. In 2011, these pro bono 
attorneys offered free representation in 1,100 appeals at the United 
States Court of Appeals for Veterans Claims, and provided 
representation in almost 700 of those cases. Since the inception of 
DAV's pro bono program before the federal courts, these attorneys made 
offers of free representation in more than 2,500 cases, providing free 
representation in over 1,500 cases.
    The DAV's Transition Service Program (TSP) was initiated 12 years 
ago, shortly after the formation of the joint VA-Department of Defense 
(DoD) Benefits Delivery at Discharge (BDD) program, an initiative to 
provide transition assistance to separating military service members 
who incurred disabilities related to their military service. The BDD 
program was developed to provide a smooth transition from the military 
to civilian society. The BDD program helps service members within 60 to 
180 days prior to military discharge to file their claims for 
disability compensation (when approved, payments for these disabilities 
are generated shortly following discharge), and for transitioning into 
the VA health care system when needed. DAV NSOs and TSOs provide free 
counsel and claims representation to service members who are eligible 
to participate in the BDD program. This program helps ensure that 
service members do not find themselves in a situation where the 
military benefits are discontinued and VA benefits have not yet begun. 
We support this program and any program that ensures new veterans and 
their families are not under-served in the transition process.
    For benefits counseling and assistance to separating service 
members in filing initial claims in the BDD program, the DAV has 
assigned 30 TSOs. These TSOs provide these services at military 
separation centers under the direct supervision of DAV NSO Supervisors. 
Our TSOs have been trained specifically to perform transition 
presentations, military service medical record reviews, and claims-
initiating activities at military separation centers at 80 military 
installations within the continental United States.
    The success of the BDD program stems from the fact that claims are 
rated based on current medical evidence as documented in the military 
treatment record and current cooperative examinations that are 
conducted at the BDD intake site. The BDD program is a win-win 
situation for both transitioning service members and for the federal 
government.
    The DAV's TSP contributes to our goal of maintaining our preeminent 
position as a provider of professional services to veterans. In 2011, 
our TSOs conducted 3,974 briefing presentations to groups of separating 
service members, with 74,858 total participants in those sessions. Our 
TSOs counseled 30,735 persons in individual interviews, reviewed the 
military service treatment records of 24,918 individuals, and filed 
benefits applications for 21,947 personnel.
    DAV continues to work toward ensuring access to service members 
within the now revised Integrated Disability Evaluation System (IDES). 
IDES is the result of a DES pilot project premised on the President's 
Commission on Care for America's Returning Wounded Warriors 
recommendation, and was launched by DoD and VA in 2007. Based on 
service members' high satisfaction rates with the revised program, the 
DoD and VA have designed IDES, with the goal of expediting the delivery 
of VA benefits to all out-processing service members. The IDES has 
three features: a single, comprehensive medical examination; a single-
source VA disability rating; and enhanced case management methods. This 
program aims to help injured and ill service members gain faster access 
to TRICARE and VA benefits by developing a single medical examination 
used by both DoD and VA, with a single-source disability evaluation 
done by VA and accepted by DoD.
    In 2010, DAV replaced an aging fleet of a previous generation of 
Mobile Service Offices (MSOs), with 10 new units. By putting DAV NSOs 
on the road, assisting veterans where they live, the DAV is increasing 
accessibility to the earned benefits our nation provides to its 
veterans. The specially equipped MSOs, staffed with NSOs, visit 
communities across the country. This outreach effort generates a 
considerable amount of claims work from veterans who may not otherwise 
have the opportunity to seek assistance at DAV National Service 
Offices.
    To support the MSO effort, in August 2010, the Harley-Davidson 
Foundation pledged a second $1 million grant to continue the Harley's 
Heroes program for another four years, extending its original 
commitment to a total of eight years. The mission of this project, 
Harley's Heroes, is to help DAV reach out to millions of veterans of 
all war generations and show the respect DAV and Harley-Davidson share 
for them as a result of veterans' service and sacrifice. It also 
ensures they gain access to benefits counseling and claims assistance 
when and where needed.
    DAV also uses its MSOs for outreach to veterans in other public 
awareness programs, such as air shows, Native American reservation 
events, NASCAR races, military retiree conventions, the Vietnam Moving 
Wall appearances, homeless veteran ``stand-downs,'' community fairs and 
parades, Veterans Day and Memorial Day activities, veterans job fairs, 
and information seminars of many types.
    During 2011, our MSOs traveled nearly 124,000 miles while visiting 
810 cities and towns, including 197 Harley-Davidson dealerships across 
the country. DAV NSOs interviewed 16,799 veterans and other potential 
claimants during these efforts.
    These specially equipped MSOs, along with our disaster relief 
teams, are also used to deploy into areas devastated by disasters 
allowing DAV to provide much-needed assistance directly to displaced 
service-disabled veterans and their families. They have been used at 
ground-zero following the attacks on the World Trade Center, around the 
Gulf Coast following Hurricanes Katrina and Rita, after a destructive 
tornado in Greensville, Kansas, and most recently, in North Carolina 
following a hurricane.
    When a DAV MSO comes to your state or district, I would encourage 
the members of these Committees and their staffs to stop by and see 
first-hand the services that DAV is providing to your constituents. I 
would also highly recommend that you refer any of your constituents who 
may need assistance with their VA claims to stop by our MSO when it is 
in your area.

    Voluntary Services

    Equally vital to the success of our mission to rebuild the lives of 
our nation's wartime service-disabled veterans are the activities of 
14,067 DAV and Auxiliary members who selflessly volunteer their time to 
assist America's sick and disabled veterans. Our Voluntary Services 
Program is as strong as ever, making sure sick and disabled veterans 
are able to attend their medical appointments, providing them comfort 
and companionship and getting them the care they need and earned. Our 
volunteers are in the VA medical centers and clinics in large numbers, 
and they visit disabled veterans at home, going where the government 
cannot or will not go. The DAV is leading the way in volunteer 
services, a fact that makes all of us proud to be a part of this 
organization, and makes me even prouder to have been chosen to lead 
this great organization.
    Last year, these valuable members of the DAV and its Auxiliary 
served our nation by providing more than 2.1 million volunteer hours of 
essential services to hospitalized veterans in VA facilities, saving 
taxpayers over $45.2 million in costs if federal employees had been 
required to provide them. Many DAV members volunteer at VA hospitals, 
clinics and nursing homes and serve as Hospital Service Coordinators 
and drivers in DAV's nationwide Transportation Network, about which I 
will provide more detail later in this testimony.
    In an effort to meaningfully touch the lives of more veterans in 
need of assistance, DAV created the Local Veterans Assistance Program 
(LVAP). Opportunities have always existed for individuals to assist 
veterans and their dependents--and DAV and our Auxiliary members have 
answered that call in full measure. We see examples of this each and 
every day aimed at meeting the principal objective of our 
organization--to build better lives for America's disabled veterans and 
their families.
    The DAV LVAP volunteers contribute time for a variety of activities 
which include, but are not limited to:

       1. Chapter and Department Service Officer work.

       2. DAV specific outreach efforts, such as DAV's air show 
outreach programs, Harley's Heroes, and National Guard mobilizations 
and demobilizations.

       3. Fundraising efforts to assist disabled veterans.

       4. Direct assistance to veterans, families and survivors, 
including our volunteers engaged in home repairs and maintenance, and 
grocery shopping, among many other supportive activities.

    Since its inception four years ago, 2,008 volunteers participated 
in the DAV's LVAP for a total of almost 602,300 hours of volunteer 
service. The DAV is constantly seeking new ways to recruit and engage 
DAV members and volunteers, and we believe this new program will work 
to the advantage of all whom we serve.
    Unfortunately, we are experiencing the loss of our volunteers from 
the Greatest Generation. The DAV has sought to reward and develop a new 
generation of younger VA volunteers. A decade ago, we created a youth 
volunteer scholarship program to ensure the future of a viable DAV 
volunteer effort. In remembrance of former VA Secretary and former DAV 
Executive Director, the late Jesse Brown, we named the scholarship 
program in his honor. Annually, the DAV Jesse Brown Memorial Youth 
Scholarship Program honors outstanding young volunteers who participate 
in the VA Voluntary Service Program and donate their time and 
compassion to sick and disabled veterans. Since its inception, the DAV 
has awarded 131 scholarships totaling about $893,000 to enable these 
exceptional young people to pursue their passions in higher education.
    In 2011, Ford Motor Company donated another $25,000 to the Jesse 
Brown Memorial Youth Scholarship Program to enable us to continue 
awarding these scholarships.
    Another corporation that has come forward to help disabled veterans 
is Golden Corral Corporation, which, for the 11th year in a row, opened 
its doors this past November to all veterans on Military Appreciation 
Monday, serving 373,000 free meals to patrons who have served in the 
armed forces. The nationwide events yielded more than $1 million in 
donations to DAV chapters and departments. Since 2001, the restaurant 
has served more than three million ``thank you'' meals to our nation's 
veterans, and raised in excess of $6 million in donations for DAV. 
These generous fundraising efforts help support DAV initiatives and 
programs throughout the year and provide a chance for chapters and 
departments to reach local veterans.

    National Transportation Network

    Madame and Mr. Chairmen, the DAV is extremely proud of the service 
provided by our volunteers, many of whom are disabled veterans 
themselves or the family members of disabled veterans. These 
volunteers, some of whom are seated before you today in this hearing, 
continue to serve the needs of our disabled veterans on a daily basis. 
Many of our nation's sick and disabled veterans are aided because of 
the time these volunteers donate. Everyone at DAV applauds their 
efforts and their dedication.
    The DAV utilizes 192 Hospital Service Coordinators at 199 VA health 
care facilities across the nationwide system to oversee DAV's National 
Transportation Network. The DAV's program provides free transportation 
to and from VA health care facilities to veterans who otherwise could 
not access needed VA medical care.
    From January through November 2011, DAV's National Transportation 
Network logged more than 22 million miles and transported 636,116 
veterans to VA health care facilities. More than 9,249 volunteer 
drivers spent nearly 1.9 million hours transporting veterans. Since our 
national transportation program began in 1987, over 14 million veterans 
have been transported almost 526 million miles, for a total of 29 
million volunteer hours by our drivers.
    In 2011, DAV donated 101 vans to VA facilities at a cost of $2.5 
million. In 2012, we plan on donating 118 vans at a cost of about $3 
million. Since 1987 thru 2011, we have donated 2,469 vans at a cost to 
DAV of $53.7 million.
    DAV's efforts were aided by the support of the Ford Motor Company 
with the presentation of eight new vehicles from Ford in August 2011 
for the DAV's Transportation Network. Since 1996 Ford has donated 156 
vehicles to the DAV National Transportation Network. The DAV is proud 
that Ford Motor Company continues to honor its commitment through its 
generous donations through DAV to the men and women who have served our 
nation and who have preserved our freedoms.
    DAV's commitment to our National Transportation Network is as 
strong as ever. We have deployed DAV vans in every state and nearly 
every Congressional district serving our veterans--your constituents.

    National Disabled Veterans Winter Sports Clinic

    DAV is a collaborator in another outstanding program that directly 
impacts the lives and well-being of seriously disabled veterans. 
Working in cooperation with VA, DAV co-sponsors the annual National 
Disabled Veterans Winter Sports Clinic. For a quarter century, this 
exceptional physical rehabilitation program, held in the mountains of 
Colorado, has transformed the lives of America's most severely injured 
veterans. This unique program--often referred to as Miracles on a 
Mountainside--helps veterans re-build confidence in their abilities, 
overcome their severe injuries and regain their lives. This event 
promotes rehabilitation by instructing veterans with severe 
disabilities in adaptive skiing, and introducing them to a number of 
other adaptive recreational activities and sports. Veterans from all 
eras attend the clinic, including many injured in Iraq and Afghanistan. 
This unique event offers many of them their first experience in winter 
sports and gives them the motivation to take their rehabilitation to a 
higher level. Participants include veterans with amputations, traumatic 
brain injuries, spinal cord injuries, neurological challenges, and 
visual impairments.
    For anyone who has attended this event and observed first-time 
participants, I can assure you, miracles still occur. These severely 
disabled veterans indeed experience a life-changing event at our Winter 
Sports Clinic, and so do all the inspired observers and volunteers who 
participate. I invite all members of these Committees to come and 
experience the Miracles on a Mountainside with me. Our next clinic is 
scheduled for March 25-30, 2012 in Snowmass Village, Colorado.

    Charitable Service Trust

    The DAV established the DAV Charitable Service Trust in 1986 to 
advance initiatives, programs or services that might not fit easily 
into the scheme of what is traditionally offered through VA, state 
veterans programs, or in the veterans service organization community. 
The Trust plays an essential and decisive role in making sure America 
meets its obligations to our nation's disabled veterans, their 
dependents and survivors.
    Each year, the Trust seeks new and innovative ways to make a 
positive difference in the lives of disabled veterans through:

    <bullet>  Advancing training and employment opportunities for 
disabled veterans and their families; and
    <bullet>  Assisting and supporting homeless veterans;
    <bullet>  Providing programs of care that fall outside the 
``medical model'' but are of benefit to disabled veterans, such as 
service dog programs, therapeutic art and writing workshops, and 
therapeutic equestrian activities;
    <bullet>  Making efforts that ensure quality health care for 
veterans in VA and other facilities;
    <bullet>  Assisting veterans suffering from post-traumatic stress 
and brain injuries;
    <bullet>  Creating programs to enhance research in, and mobility 
for, veterans with amputations and spinal cord injuries;
    <bullet>  Improving outreach benefiting aging disabled veterans, 
including those with mental illness;
    <bullet>  Funding programs that evaluate and address the needs of 
veterans disabled in recent wars and conflicts;

    Each year brings dramatic new changes in the lives of disabled 
veterans that present greater challenges to our mission of service to 
them and their families. Our Charitable Service Trust will continue to 
do all it can to meet the real needs of sick and disabled veterans.
    As my testimony demonstrates, the DAV remains committed to its 
focused mission. The DAV is proud that it can direct its resources to 
the most needed and meaningful services for America's service-disabled 
veterans and their families. There is no nonprofit organization that 
does more for disabled veterans, their families and survivors than the 
DAV.
    Since by national policy DAV neither seeks nor accepts government 
grants or contracts of any kind, the DAV is able to carry out these 
good works only with the continuing support of our members, our 
dedicated corporate partners, and a generous American public that 
remain faithful to our work and grateful for all that our veterans have 
done. They collectively express that gratitude through us, and this is 
a very humbling role for DAV.

    National Legislative Program

    Madame and Mr. Chairmen, DAV was founded in 1920 as a nonpartisan, 
nonprofit veterans service organization. Since then, promotion of 
meaningful, reasonable, and responsible public policy for wartime 
service-disabled veterans has been at the heart of who we are and what 
we do. Our will and commitment to building better lives for our 
nation's wartime service-disabled veterans and their families and 
survivors emanate from our history, our own personal sacrifices in the 
armed forces, and they are strengthened by the vitality of our 
membership and the sustained support of the American people.
    Major policy positions of the DAV are derived from resolutions 
adopted by the delegates to our annual National Conventions. Since our 
first National Convention in 1921, the DAV's annual legislative program 
has served to guide our advocacy for disabled veterans in conformance 
with the collective will of our members. Our 2011-2012 mandates cover a 
broad spectrum of VA programs and services, and they are available on 
DAV's website, at http://www.dav.org/voters/documents/Resolutions.pdf. 
I invite your professional staffs to consider the content of these 
resolutions in crafting legislation for the second session of the 112th 
Congress.
    DAV thanks these Committees and Congress for their past support of 
legislative issues that have benefited service-disabled veterans, their 
families and survivors. In the first session of the 112th Congress, we 
appreciate enactment of the VOW to Hire Heroes Act to enhance veterans' 
jobs programs and legislation to provide a cost-of-living adjustment 
for disability compensation, the first increase in disability 
compensation in two years. We especially want to recognize Chairman 
Murray for your advocacy on jobs for veterans, women veterans and post-
deployment mental health care. Chairman Miller, we thank you for your 
leadership on jobs for veterans, and for your intention to pursue 
strong oversight of VA's myriad programs.
    As DAV has testified in the past, we are concerned that some of the 
benefits Congress enacted are exclusive to veterans of OEF/OIF. While 
we understand that these are special circumstances that may require 
legislative consideration to ease transition challenges from military 
to civilian life, DAV represents disabled wartime veterans of any age 
and of any period of service. We remain dismayed that previous 
generations cannot take advantage of a number of these new 
improvements, and we ask your Committees to reconsider the trend to 
exclude older veterans from the new and expanded benefits you have 
awarded to younger ones, especially the stipend and extensive health 
care benefits for veterans' caregivers.
    With the realization that we will have ample opportunity to more 
fully address other DAV legislative resolutions during hearings before 
your Committees and personally with your staffs in the new session, I 
shall only highlight crucial ones in this statement.

    Medical and Health Care Services

    <bullet>  Congress and the Administration must assure full 
implementation of legislation to guarantee sufficient, timely, and 
predictable funding for VA health care programs.
    <bullet>  Ensure:

    I that priority access and timely, quality health care services are 
provided to service-connected disabled veterans.
    I proper screening and treatment for traumatic brain injury and 
post-deployment mental health issues.

    <bullet>  Support:

    I comprehensive quality medical services and benefits for women 
veterans.
    I repeal of VA and Department of Defense co-payments for medical 
care and prescription medications.
    I legislation to provide comprehensive support services for 
caregivers of all severely wounded, injured, and ill veterans.
    I repeal of beneficiary travel pay deductibles for service-
connected disabled veterans and support increased beneficiary travel 
reimbursement rates.

    Disability Compensation and Other Benefits

    <bullet>  Support:

    I legislation to provide a realistic increase in VA compensation 
rates to address loss of quality of life.
    I reform in the Veterans Benefits Administration's disability 
claims process.
    I legislation to remove the prohibition against concurrent receipt 
of military retired pay and VA disability compensation.
    I legislation to remove the offset of Survivor Benefit Plan 
payments and VA Dependency and Indemnity Compensation.
    I interest payments for VA retroactive awards of one year or more.

    <bullet>  Oppose:

    I any proposal that would offset payments of Social Security 
Disability Insurance benefits or any other federal benefits by the 
amount of VA compensation.
    I any scheme to means test disability and death compensation.
    I any change that would redefine service-connected disability or 
restrict the conditions or circumstances under which it may be 
established.
    I any recommendations by any commission to reduce or eliminate 
benefits for disabled veterans.

    General Issues

    <bullet>  Extend:

    I military commissary and exchange privileges to service-connected 
disabled veterans.
    I space-available air travel aboard military aircraft to 100 
percent service-connected disabled veterans.

    <bullet>  Provide educational benefits for dependents of service-
connected veterans rated 80 percent or more disabled.

    <bullet>  Support:

    I legislation that would exempt the benefits paid to wartime 
service-connected disabled veterans from the ``Pay-Go'' and ``Cut-Go'' 
provisions of the Budget Enforcement Act.
    I legislation to reduce premiums for Service Disabled Veterans' 
Insurance consistent with current life expectancy.
    I legislative measures assisting disabled veteran-owned businesses.
    I fullest possible accounting of POW/MIAs from all wars and 
conflicts.
    I legislation to provide families of veterans who are service-
disabled veteran-owned business owners but rated less than 100 percent 
service-connected conditions a reasonable transition period to 
restructure their businesses.

    <bullet>  Eliminate the current 12-year eligibility limit for 
veterans to take advantage of their vocational rehabilitation benefits.

    Madame and Mr. Chairmen, your Committees' support of these matters 
would be deeply appreciated by DAV and all our members who have 
sacrificed so much for our nation--our service-disabled veterans and 
their families and survivors. We ask that DAV resolutions be among the 
policies to be considered by Congress in 2012.
    Madame and Mr. Chairmen, as our statistics show, DAV not only 
advocates on behalf of our nation's disabled veterans, but we also 
continue to give back to our nation and our fellow veterans through the 
programs that I have described in this testimony. I hope that I have 
been able to demonstrate for you and your colleagues that DAV devotes 
its resources to the most needed and meaningful services for our 
disabled veterans. These services aid disabled veterans directly and 
support and augment VA programs. I trust you can see why the men and 
women of the DAV and its Auxiliary are so proud of this great 
organization and all that it does for disabled veterans, their families 
and survivors each year.
    I trust that my testimony has assisted you to understand that 
America's disabled veterans rather than being satisfied to rest on 
their laurels, continue to stand ready to actively and unselfishly 
stand up for veterans, their families and survivors across this great 
land of ours.
    In closing, let me again say that it has been an honor to appear 
before you today to present the major issues and concerns of the 
Disabled American Veterans. I know that all of us present in this room 
and all DAV and DAV Auxiliary members share a deep and abiding respect 
for the brave men and women who serve our country so selflessly, 
especially those still in harm's way overseas.
    As these Committees deliberate during the second session of the 
112th Congress, please keep in mind that disabled veterans, their loved 
ones and survivors, have paid a high price for the freedoms we all 
cherish as Americans. The only thing that we ask in return for our 
sacrifices and our service to our country is for our government to 
honor its sacred obligation and keep its promises to America's disabled 
veterans, their families and survivors. The defenders of our nation 
deserve nothing less.
    My colleagues and I are prepared to further discuss any matters 
relevant to DAV, this testimony, or to respond to your questions. Thank 
you very much for your time.
    May God bless America.

                                  <all>

</pre></body></html>
